<html>
<title> - PLUGGING THE GAPS IN BORDER SECURITY: THE ONE FACE AT THE BORDER INITIATIVE</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



                  PLUGGING THE GAPS IN BORDER SECURITY

=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                                 of the

                 SELECT COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 16, 2003

                               __________

                           Serial No. 108-30

                               __________

    Printed for the use of the Select Committee on Homeland Security


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
21-510                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�0900012005


                 SELECT COMMITTEE ON HOMELAND SECURITY

                 CHRISTOPHER COX, California, Chairman

JENNIFER DUNN, Washington            JIM TURNER, Texas, Ranking Member
C.W. BILL YOUNG, Florida             BENNIE G. THOMPSON, Mississippi
DON YOUNG, Alaska                    LORETTA SANCHEZ, California
F. JAMES SENSENBRENNER, JR.,         EDWARD J. MARKEY, Massachusetts
Wisconsin                            NORMAN D. DICKS, Washington
W.J. (BILLY) TAUZIN, Louisiana       BARNEY FRANK, Massachusetts
DAVID DREIER, California             JANE HARMAN, California
DUNCAN HUNTER, California            BENJAMIN L. CARDIN, Maryland
HAROLD ROGERS, Kentucky              LOUISE McINTOSH SLAUGHTER,
SHERWOOD BOEHLERT, New York            New York
LAMAR S. SMITH, Texas                PETER A. DeFAZIO, Oregon
CURT WELDON, Pennsylvania            NITA M. LOWEY, New York
CHRISTOPHER SHAYS, Connecticut       ROBERT E. ANDREWS, New Jersey
PORTER J. GOSS, Florida              ELEANOR HOLMES NORTON,
DAVE CAMP, Michigan                    District of Columbia
LINCOLN DIAZ-BALART, Florida         ZOE LOFGREN, California
BOB GOODLATTE, Virginia              KAREN McCARTHY, Missouri
ERNEST J. ISTOOK, Jr., Oklahoma      SHEILA JACKSON-LEE, Texas
PETER T. KING, New York              BILL PASCRELL, JR., New Jersey
JOHN LINDER, Georgia                 DONNA M. CHRISTENSEN,
JOHN B. SHADEGG, Arizona               U.S. Virgin Islands
MARK E. SOUDER, Indiana              BOB ETHERIDGE, North Carolina
MAC THORNBERRY, Texas                CHARLES GONZALEZ, Texas
JIM GIBBONS, Nevada                  KEN LUCAS, Kentucky
KAY GRANGER, Texas                   JAMES R. LANGEVIN, Rhode Island
PETE SESSIONS, Texas                 KENDRICK B. MEEK, Florida
JOHN E. SWEENEY, New York

                      JOHN GANNON, Chief of Staff

         UTTAM DHILLON, Chief Counsel and Deputy Staff Director

               DAVID H. SCHANZER, Democrat Staff Director

                    MICHAEL S. TWINCHEK, Chief Clerk

                                 ______

           SUBCOMMITTEE ON INFRASTRUCTURE AND BORDER SECURITY

                     DAVE CAMP, Michigan, Chairman

KAY GRANGER, Texas, Vice Chairwoman  LORETTA SANCHEZ, California
JENNIFER DUNN, Washington            EDWARD J. MARKEY, Massachusetts
DON YOUNG, Alaska                    NORMAN D. DICKS, Washington
DUNCAN HUNTER, California            BARNEY FRANK, Massachusetts
LAMAR SMITH, Texas                   BENJAMIN L. CARDIN, Maryland
LINCOLN DIAZ-BALART, Florida         LOUISE McINTOSH SLAUGHTER,
ROBERT W. GOODLATTE, Virginia          New York
ERNEST ISTOOK, Oklahoma              PETER A. DeFAZIO, Oregon
JOHN SHADEGG, Arizona                SHEILA JACKSON-LEE, Texas
MARK SOUDER, Indiana                 BILL PASCRELL, JR., New Jersey
JOHN SWEENEY, New York               CHARLES GONZALEZ, Texas
CHRISTOPHER COX, California, Ex      JIM TURNER, Texas, Ex Officio
Officio

                                  (II)


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               STATEMENTS

The Honorable Dave Camp, a Representative in Congress From the 
  State of Michigan, and Chairman, Subcommittee on Infrastructure 
  and Border Security
  Oral Statement.................................................     1
  Prepared Statement.............................................     2
The Honorable Loretta Sanchez, a Representative in Congress From 
  the State of California, and Ranking Member, Subcommittee on 
  Infrastructure and Border Security
  Oral Statement.................................................     2
  Prepared Statement.............................................     3
The Honorable Christopher Cox, a Representative in Congress From 
  the State of California, and Chairman, Select Committee on 
  Homeland Security..............................................    22
The Honorable Jim Turner, a Representative in Congress From the 
  State of Texas, and Ranking Member, Select Committee on 
  Homeland Security..............................................     6
The Honorable Norman D. Dicks, a Representative in Congress From 
  the State of Washington........................................    24
The Honorable Jennifer Dunn, a Representative in Congress From 
  the State of Washington........................................    27
The Honorable Bob Goodlatte, a Representative in Congress From 
  the State of Virginia
  Oral Statement.................................................     4
  Prepared Statement.............................................     5
The Honorable Kay Granger, a Representative in Congress From the 
  State of Texas.................................................    32
The Honorable Sheila Jackson-Lee, a Representative in Congress 
  From the State of Texas
  Oral Statement.................................................    33
  Prepared Statement.............................................     6
The Honorable Edward J. Markey, a Representative in Congress From 
  the State of Massachusetts.....................................    29

                               WITNESSES

The Honorable Robert Bonner, Commissioner, Bureau of Customs and 
  Border Protection, Department of Homeland Security
  Oral Statement.................................................     7
  Prepared Statement.............................................    11
Mr. Tom Keefe, President, National Treasury Employees Union, 
  Local 137
  Oral Statement.................................................    36
  Prepared Statement.............................................    38
Mr. Tom Kuhn, President, American Federation of Government 
  Employees Union 2580
  Oral Statement.................................................    40
  Prepared Statement.............................................    42
Mr. Bill Pauli, President, California Farm Bureau Federation
  Oral Statement.................................................    44
  Prepared Statement.............................................    46

                                APPENDIX
                   Material Submitted for the Record

Prepared Statement of Donna M. Garren, Ph.D. Vice President, 
  Scientific and Technical Affairs...............................    58
Prepared Statement of Mr. Thomas P. Kuhn.........................    60

 
                 PLUGGING THE GAPS IN BORDER SECURITY:
                 THE ONE FACE AT THE BORDER INITIATIVE

                              ----------                              


                       Thursday, October 16, 2003

                          House of Representatives,
                     Subcommittee on Infrastructure
                               and Border Security,
                     Select Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 1:06 p.m., in 
Room 2212, Rayburn House Office Building, Hon. Dave Camp 
[chairman of the subcommittee] presiding.
    Present: Representatives Camp, Granger, Dunn, Smith, 
Goodlatte, Sanchez, Markey, Dicks, Cardin, Slaughter, Jackson-
Lee, Cox, ex officio, and Turner, ex officio.
    Mr. Camp. The Subcommittee on Infrastructure and Border 
Security hearing will come to order. I would like to welcome 
and thank all of those attending today's hearing.
    Today's business is to receive testimony regarding the new 
border security initiative announced by Secretary Ridge on 
September 2, creating One Face at the Border; and the 
subcommittee will first hear from Commissioner Robert Bonner in 
his first public hearing on this new proposal. We will then 
hear from a second panel comprised of the National Treasury 
Employees, represented by Tom Keefe; the American Federation of 
Government Employees, represented by Tom Kuhn; and the 
California Farm Bureau Federation, represented by Bill Pauli.
    Typically, in these hearings, to allow for more time for 
witness testimony and questions, the Chair requests that the 
members agree to a unanimous consent to waive opening 
statements.
    Is there any objection to unanimous consent to waive 
opening statements?
    Ms. Sanchez. Mr. Chairman, I believe there are some people 
on my side that wanted to do some opening statements.
    Mr. Camp. All right. Seeing then an objection to the 
unanimous consent, we will proceed with opening statements. And 
under committee rule 3, any members present at the beginning of 
the hearing may make a 3-minute opening statement, the Chair 
urges members to make summaries of their statements and insert 
their full statements into the record.
    I do have a statement that I will insert into the record.

  Prepared Opening Statement of Dave Camp, Chairman, Subcommittee on 
                   Infrastructure and Border Security

    The Homeland Security Act consolidated several border security 
agencies in the DHS Directorate of Border and Transportation Security. 
The success of the BTS Directorate requires effective and expedited 
coordination of the transferred agencies, which is the purpose of the 
One Face at the Border Initiative.
    The Bureau of Customs and Border Protection houses the inspection 
functions and we've called CBP Commissioner Bonner here to gather 
additional information about the purpose and impact of the new 
initiative.
    This proposal aims to fully integrate the three separate inspection 
positions, Customs, Immigration and Agriculture inspectors, into one 
new CBP Officer cross-trained to successfully screen for all three 
priority missions.
    Historically, travelers entering the U.S. could make up to 3 stops, 
with each inspection carried out by a separate DHS employee. CBP is 
following through on a commitment to unify this system in order to 
process travelers more rapidly and conveniently while simultaneously 
identifying and addressing potential risks.
    Merging the inspection forces of legacy Customs, INS, and APHIS has 
the potential to greatly increase the law enforcement responsibilities 
of the individual inspector at the border. These expanded 
responsibilities include such diverse areas as: evaluating terrorist 
threats; enforcing customs rules relating to commerce; enforcing 
immigration laws; and inspecting food and agricultural imports for 
insects and quarantine.
    By utilizing one employee to perform all three primary inspection 
functions, the Department hopes to deploy additional employees into 
secondary inspection thus targeting our resources towards those 
passengers and cargo with suspicious indicators.
    Each year more than 500 million people legally enter the country 
and over $1 trillion in trade crosses our borders. Searching for the 
threats and security risks in that bulk of commerce and people is a 
huge task. We have an unprecedented opportunity with the new Homeland 
Security Department to change the way we do business. Now is the time 
to develop and implement a comprehensive vision for border security.
    Anytime something changes, there is concern and unease until it is 
implemented and proven successful. Through multiple conversations that 
I have had with the private sector and individual stakeholders in this 
endeavor, I have not heard anyone say that this is a bad idea. In fact, 
most people see initiatives like this as the foundation necessary for 
effective homeland security.
    Legitimate concerns have been expressed about losing some of the 
expertise that our legacy inspectors have gained during their years of 
service. Commissioner Bonner will be called upon to address those 
questions today and I look forward to hearing more about the specific 
details of the program, especially regarding on-the-job training and 
mentoring.
    I don't think that anyone would argue that this is going to be a 
simple and easy transfer, but instead will require a lot of work and 
dedication from both the legacy and new employees. The expertise and 
skill from those currently on our front lines will be necessary for 
mentoring and training the new CBP Officers. The force multiplying 
potential of having one face at the border could be a great advantage. 
The critical nature of the homeland security mission requires innovate 
and comprehensive strategies that multiply our strengths and diminish 
the risks.
    The impact of this initiative is greater than its stated purpose. 
The integration will set a standard and be a model for subsequent 
homeland security initiatives and future DHS efforts to integrate its 
legacy agencies. How this the One Face at the Border initiative is 
carried out will lead the way for other much needed security reforms.
    I would like to express my thanks and appreciate to Secretary Ridge 
and Commissioner Bonner for their leadership in announcing and 
implementing the One Face at the Border workforce.
    I will conclude my remarks and enter my full statement for the 
record.

    With that, I would yield to the ranking member, Ms. 
Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman. And I will just 
summarize and also put my statement in for the record.
    First of all, I thank you, Honorable Mr. Bonner, for coming 
back before us. We are--I know that you have a lengthy 
testimony today, so we are looking forward to hear what you 
have to say.
    Obviously, this hearing is about taking various tasks and 
putting them all together and having one person do it pretty 
much. And I would like to hear how we are going to get that 
done, how it is coming along, and whether we are going to end 
up with a jack of all trades, but an expert in none. I think 
that is really the concern that many of us have.
    Also, I was a little worried because I thought at first 
that the agriculture entry piece was going to get shortchanged, 
but I hope you will expand on the fact that there actually will 
be some specialists who will still do the agricultural work and 
scrutiny.
    The reason that is so important to me, of course, is, my 
home State of California's number one industry is agriculture. 
We are always very concerned about people coming into our 
country who might want to do us harm. But there are always 
those people who seem to bring back plants or fruit or 
something who, not really understanding, may bring that in with 
them and do us even more harm, economic harm, by bringing in 
pests and other diseases.
    So I look forward to hearing from all of our witnesses. I 
am particularly going to look forward to the next panel also, 
because we will have some people who have actually been on the 
ground and who understand the limitations and the challenges of 
trying to get the work done right on the front lines.
    With that, Mr. Chairman, I will submit my statement for the 
record.
    Mr. Camp. Thank you very much.
    [The statement of Ms. Sanchez follows:]

    Prepared Opening Statement of The Honorable Loretta Sanchez, a 
   Representative in Congress From the State California, and Ranking 
       Member, Subcommittee on Infrastructure and Border Security

    Thank you, Mr. Chairman. I'd like to thank all of our witnesses for 
coming here today. This is the second time Mr. Bonner has visited this 
subcommittee and we are glad to have him back.
    Today's hearing on the ``One Face at the Border'' Initiative is an 
important one. The introduction of the new Department of Homeland 
Security and the assimilation and reassignment of the duties of former 
agencies within that department is what the ``One Face'' Initiative is 
all about.
    The department has taken on an ambitious task: To focus on stopping 
potential terrorist activity while at the same time attempting to 
streamline the immigration and customs process without losing any 
expertise in the process.
    Many of us are concerned that for one person to be expected to do 
all the jobs of immigration, customs, and possibly agriculture 
inspector--and do them well--might be unrealistic.
    I am very happy to see that we have not only Commissioner Bonner, 
but two inspectors, one former immigration and one former customs, to 
give us their perspective. I always find that to get the full 
information, it is best to ask both management and rank- and-file 
opinions and I am happy to see that we will have that perspective 
today.
    ``One Face'' is like a one-stop shop. In previous years, those 
entering the US would go through immigration, then grab their luggage 
and go through customs, and, if necessary, go though an agriculture 
station.
    The new initiative would combine primary customs, immigration, and 
agriculture into one person--the Customs and Border Protection or CBP 
officer. The traveler may be cleared to go after primary inspection by 
the CBP officer, or may be referred to secondary inspection, where a 
CBP officer would have more time to inspect them.
    Compared to the old system, there is no marked difference between 
the expertise and experience level between primary and secondary 
inspectors.
    There are specialists, such as canine and drug interdiction that 
can be called in, but the old system was set up so that secondary 
inspectors were those that had more expertise than those in primary. 
This is not the case in the new system as I understand it.
    One of the things I was gratified to see was the existence of the 
CBP Agriculture Specialist. Mr. Pauli from the California farm bureau 
is here. He was concerned, as was I, when initial reports indicated 
that the scientific expertise formerly required of all USDA Agriculture 
inspectors would be lost if all of them were replaced by CBP Officers.
    I was relieved to find out that the ``One Face'' plan still calls 
for CBP Agriculture Specialists, distinct from CBP Officers, who will 
retain that specialized training that the USDA inspectors had.
    My home state of California, after all, is the largest agricultural 
producing state in the country. In our desire to prevent the country 
from terrorists, we cannot forget that significant harm can be caused 
to our economy if we fail to protect ourselves from agricultural 
parasites and diseases.
    I am looking forward to hearing from all of our witnesses today. I 
hope that this initiative will be successful, and it is the intention 
of this committee to help ensure that success.
    Thank you, Mr. Chairman.

    Mr. Camp. And I would now recognize Mr. Goodlatte for any 
opening statement.
    Mr. Goodlatte. Thank you, Mr. Chairman. And thank you also 
for holding this important hearing. I would say that the 
subject of this hearing is the reason why I requested to be put 
on this committee and why as the chairman of the House 
Agriculture Committee the Speaker of the House placed me on 
this committee.
    This is an extremely important issue. I am very interested 
in hearing what Mr. Bonner has to say about the same subject 
raised by the gentlewoman from California with regard to 
agriculture, because in your testimony, Mr. Bonner, there are--
in the thousands of words, there are only 56 that relate to the 
responsibility of the Animal and Plant Health Inspection 
Service, which we were very concerned about when that agency 
was split in two, part of it remaining in the Department of 
Agriculture, part of it going over to the Department of 
Homeland Security.
    We understand the need for coordination at the border. We 
think that the President's initiative, which I supported, is 
important. But we also understand the exceedingly serious role 
that Animal and Plant Health Inspection people play with regard 
to this.
    There are billions of dollars at stake here, there are 
people's lives at stake here. The fact of the matter is, if 
something like hoof and mouth disease, which the Department of 
Agriculture has done a very good job of keeping out of this 
country, were to get into the country, the damage to our 
livestock industry would clearly be in the billions of dollars.
    The same thing with BSE, a problem which occurred recently 
as close as Canada.
    And yet we are concerned about the training and the 
requirements that need to be improved upon, the people who will 
be hired to fill these multiple-role positions, inspecting not 
only for animals and plants, but immigration and normal customs 
duties as well.
    We have been disappointed with the amount of information we 
have received from the Department regarding this. We have on 
more than one occasion requested that representatives of the 
Department come to the Hill, most recently just prior to this 
hearing, to be briefed. And we were told that the Department 
staff were too busy.
    We also requested to be briefed after this hearing, which 
we thought was a little more open-ended, and we were again told 
that the Department was too busy.
    The Agriculture Committee will be following up on Chairman 
Camp's hearing on this, and we will be pursuing this at great 
length. But let me say when an event like hoof and mouth 
disease comes into this country on the shoes of somebody who 
visits a farm anywhere in the world where that disease is 
rampant and is not properly inspected at the border and that 
kind of a disease does come about, the answer of ``we were too 
busy'' to consult with the people who have the ability to give 
good advice on how to handle this will not be acceptable.
    Mr. Chairman, thank you very much.

  Prepared Statement for the Record of The Honorable Bob Goodlatte, a 
         Representative in Congress From the State of Virginia

    Mr. Chairman, thank you for holding this hearing today. In that the 
One Face at the Border initiative is already being implemented, I am 
grateful for the opportunity this hearing and further oversight 
hearings I intend to convene in the Agriculture Committee present to 
ensure success of our new consolidated border inspection program.
    I am generally supportive of the Administration's efforts to 
streamlinegovernment programs by making more efficient use of limited 
Federalresources. That said, the ``One Face at the Border'' initiative 
leaves me witha number of questions, and quite frankly, a good deal of 
concern regardingthe effectiveness of the new inspection model.
    In particular, I am concerned that the proposal regarding training 
and staffing levels as currently reflected in communications with DHS, 
would be insufficient to protect American Agriculture against the 
unintentional introduction of plant and animal pests and disease.
    As I sit here today, I have a number of questions concerning the 
proposed training program; the level of staffing by agricultural 
specialists at passenger and cargo terminals; proposals from DHS on how 
they intend to spend funds collected from Agricultural Quarantine 
Inspection User Fees; and the amount of consultation that took place 
between the DHS and the Department of Agriculture prior to DHS 
announcing this new management initiative.
    I am particularly concerned, Commissioner Bonner, with the 
unwillingness of your staff to provide my committee with the answers to 
questions we have raised on these topics.
    DHS is a new department that combines existing agencies in new 
ways. By definition they have a new mission. But contained in that 
mission is an important function that's been going on for over a 
hundred years: protecting agricultural production from the introduction 
of foreign animal and plant diseases. Over the years, this function has 
involved the investment of hundreds of millions in taxpayer dollars and 
had countless man hours, education, and experience devoted to it. At 
risk is a food production system which is truly priceless. Those with 
experience in this field understand the old adage: ``An ounce of 
prevention is worth a pound of cure.'' If an accidental introduction of 
Foot and Mouth Disease were to occur, it would cost our economy tens of 
billions of dollars. Compare this to the simple investment of time and 
personnel to adequately safeguard against the introduction of such 
foreign diseases and you can begin to understand our concern with this 
new initiative. In our zeal to focus attention on the intentional 
threat to America, we simply cannot neglect to protect ourselves from 
the historical threats that continue.
    There will be scant satisfaction from stopping a terrorist attack 
on American agriculture if it is subsequently destroyed by neglecting 
the commonplace animal and plant diseases that the agriculture 
community faces everyday.
    I know that agricultural quarantine inspection is in many ways a 
new world for the legacy Customs managers and inspectors. These people 
are at the beginning of a steep learning curve so I understand and 
anticipate that they will face some hurdles from time to time. Many of 
these hurdles can be minimized, or completely eliminated through 
cooperation and dialogue which at this point, has been all too limited.
    It is clear that in the recent meetings with senior officials in 
the USDA as well as representatives of the agricultural sector, 
Commissioner Bonner is becoming aware of the unique risks faced by 
agriculture, not only from acts of terrorism, but the risks associated 
with the unintentional introduction of a pest or disease that could 
cost American agriculture millions, or even billions, of dollars.
    Unfortunately, this new found understanding is not reflected in any 
material we can find on the DHS web site nor in communications with the 
Agriculture Committee. I am hopeful that this hearing represents a new 
beginning in the discussion of DHS' management of the programs for 
which they have been entrusted. I look forward to today's testimony. 
Mr. Chairman, I yield back the balance of my time.

    Mr. Camp. Thank you.
    And now I recognize the ranking member of the full 
committee, Congressman Turner, for any opening statement.
    Mr. Turner. Thank you, Mr. Chairman. I too will file my 
statement for the record, but let me say that I am very pleased 
to see Commissioner Bonner here with us today. I know he works 
very hard at the task that he has at hand. It is a very 
challenging responsibility.
    The questions that I hope will be addressed today are the 
same that our ranking subcommittee chairwoman addressed, 
because I have wondered whether it is possible to provide the 
additional training necessary to perform these difficult 
responsibilities at the border in such a way that one person 
will be able to carry out all these inspection 
responsibilities.
    I also want to be sure that we are not rolling back the 
level of training that for inspection agents at a time when 
their capability, their training, is more important than ever 
before. So I hope, Commissioner, you can reassure us with 
regard to those issues.
    I also want to say I was very pleased when I learned that 
the Department will keep our agriculture inspectors separate 
and distinct from the Customs and Border Protection officers. 
There is, I think, very specialized training needed by the 
agricultural inspection agents and I think that that decision 
was a wise one.
    I look forward to hearing from each of our panelists today. 
Thank you, Mr. Chairman.

 Prepared Statement of The Honorable Jackson-Lee, a Representative in 
                    Congress From the State of Texas

    I want to start by commending the United States Bureau of Customs 
and Border Protection (CBP) for its decision to implement the One Face 
at the Border initiative. This program is long overdue. The debate 
about consolidating ports of entry inspection functions began in the 
early 1970s. In 1993, the General Accounting Office (GAO) convened a 
panel to discuss various operational options for managing international 
ports of entry. The results of this discussion were reported by J. 
William Gadsby in testimony before the House Subcommittee on 
Information, Justice, Transportation, and Agriculture.
    According to Mr. Gadsby, a GAO director, the panel members did not 
believe that the dual management structure between the former 
Immigration and Naturalization Service (INS) and the U.S. Customs 
Service was adequate. The panel members were concerned that this dual 
system would not be able to handle the customs and immigrations service 
demands that were likely to confront the government in the next 10 to 
30 years. They believed that management benefits could be gained by 
vesting responsibility with one agency. They expected the benefits to 
include (1) an improved capability to think strategically about related 
immigration and customs issues, and (2) clearer accountability for 
border operations by having one spokesperson within the government for 
issues surrounding the movement of people, goods, and services into the 
United States.
    These benefits and more will be derived from the One Face at the 
Border initiative. Under this initiative, the previous separation of 
the immigration, customs, and agriculture functions will be eliminated. 
Thus, the need to undergo up to three separate inspections will be 
eliminated. The unified inspection process will involve a single 
primary inspector who will determine whether the individual needs to go 
to secondary inspection for a more thorough screening and review by a 
higher-level inspector.
    Also, by utilizing one employee to perform all three primary 
inspection functions, CBP will be able to deploy additional employees 
to secondary inspection, which is where potentially dangerous 
immigrants will be questioned.
    It is vital for Congress to support the implementation of the One 
Face at the Border initiative. We must make more resources available to 
CBP. Among other things, our ports of entry are inadequately staffed, 
and infrastructure needs have not been met. For instance, although all 
of the ports at land borders have entry lanes, many of them lack the 
facilities for exit lanes. If we want to improve border security at our 
ports of entry, we must work with CBP to ensure adequate staffing, 
infrastructure, and technology.
    I am particularly concerned about maintaining adequate staffing 
levels. The international airport at Houston, Texas, has had 
recruitment and retention problems for many years. This has resulted in 
an inability to maintain a full staff, and many of the inspectors are 
recent hires who lack experience. The increased waiting time at 
inspection lines is unacceptable.
    CBP faces grave challenges. Recent government studies have revealed 
serious inadequacies in the training of immigration inspectors. Among 
other things, they have not received sufficient training in detecting 
fraudulent documents. Also, complaints from my constituents indicate 
that more work is needed to ensure that every inspection is done with 
due respect for the dignity of the person being inspected. I know, 
however, that CBP is addressing these and other problems in its new 
training programs. I am particularly pleased with the emphasis that is 
being placed now on such things as cultural awareness. Thank you.

    Mr. Camp. Thank you. And seeing no additional requests for 
time, we will begin.
    Again, I would like to thank our witnesses for being here 
and we will hear testimony from Commissioner Bonner first, 
followed by questions. And then we will hear from the second 
panel, followed by questions.
    So we will begin welcoming back Commissioner Robert Bonner 
of the Bureau of Customs and Border Protection. We have your 
written statement, and we would ask you to summarize that in 10 
minutes; and we look forward to hearing from you. Thank you for 
being here.

STATEMENT OF THE HONORABLE ROBERT C. BONNER, COMMISSIONER, U.S. 
  BUREAU OF CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Bonner. Thank you, Mr. Chairman and members of the 
committee, Ms. Sanchez and the other members of the 
subcommittee, as well as Mr. Turner of the full committee.
    I appreciate the opportunity to testify today regarding 
U.S. customs and now Customs and Border Protection, to testify 
briefly on our efforts since 9/11 to improve border security, 
including more recently our efforts to achieve ``One Face at 
the Border,'' that is, one agency to manage and secure our 
country's border.
    A lot has been done to improve border security and I want 
to touch on the fact that since 9/11, U.S. Customs, now Customs 
and Border Protection, has taken many steps to literally 
reinvent our borders and make them secure against the terrorist 
threat, but to do so in a way that does not stifle the trade 
and commerce that is so important to our economy. I want to 
list some of these steps for this committee.
    On 9/11 we had about 1,000 Customs inspectors and 500 
Immigration inspectors at our northern border ports of entry. 
Today, we have over 2,900 CBP inspectors at our northern 
border. We have also increased the number of inspectors at our 
Nation's seaports, airports and southern border crossing 
points.
    On 9/11, we had no large-scale X-ray-type machines on our 
northern border. Today, we have 24 and we have them at all the 
major crossings between Canada into the United States.
    On 9/11, we had 45 large-scale X-ray-type machines deployed 
mostly at our border with Mexico for drug detection purposes. 
Today, we have 134 of these large, whole container, whole truck 
X-ray-type machines deployed nationwide.
    On 9/11, there were only 368 authorized positions for 
Border Patrol agents on our northern border with Canada to 
secure between the ports of entry, and I am pleased to say that 
I am in the process of increasing that number to 1,000 Border 
Patrol agents, and we will be there soon.
    On 9/11, there was no Customs-Trade Partnership Against 
Terrorism to better secure our supply chain of goods moving 
into the United States in partnership with the private sector. 
Today, there are 4,300 companies participating in the C-TPAT 
program.
    On 9/11, the Free and Secure Trade initiative, or FAST, did 
not exist. That is a binational program with Canada. Today, it 
is operational on 28 lanes, six major commercial crossings 
between the U.S. and Canada, and we are about to begin 
implementing the FAST program with Mexico at El Paso later this 
month.
    On 9/11, the Container Security Initiative did not exist. 
Today, governments representing 19 of 20 foreign ports have 
signed up to implement CSI, and CSI is already operational in 
16 ports worldwide.
    Since 9/11, Customs or Customs and Border Protection has 
implemented the 24-hour rule so that we can get advanced 
information on sea cargo containers destined for the United 
State 24 hours before those containers are loaded at foreign 
ports on a vessel. Soon we will have finalized regulations 
requiring advanced electronic information for the other modes 
of transportation--air cargo, rail and commercial trucks.
    Since 9/11--by the way, with the help of Congress--Customs, 
now Customs and Border Protection, implemented legislation in 
November of 2001 that required air carriers to transmit to us 
advanced information on international airline passengers to 
better determine whether passengers pose a potential threat for 
terrorism in advance of their arrival.
    Since 9/11, working with Canada we expanded the NEXUS 
program, a secure traveler program, from a small pilot project 
to eight northern border crossing points. There are over 23,000 
people that have been vetted and enrolled in the NEXUS program.
    On 9/11, CBP did not have an automated risk management 
system at the national level to identify potential terrorist 
threats to our country. Shortly after 9/11, in October of 2001, 
CBP staff established a National Targeting Center to do this. 
It is now called the National Targeting Center of Customs and 
Border Protection.
    On 9/11, CBP had 3,800 personal radiation detectors 
deployed. We now have over 8,000 deployed. All frontline 
inspectors wear them.
    On 9/11, CBP had no radioisotope identifiers and no portal 
radiation detection monitors. We have deployed 300 isotope 
identifiers and well over, I believe, 60 now, radiation portal 
monitors, and we are steadily increasing that deployment.
    On 9/11, our canines, as most of you know, our detection 
dogs were trained to detect illegal drugs and currency. Today, 
we have a canine training program for detecting explosives and 
chemicals to be used as terrorist weapons.
    I would be remiss if I did not note two critically 
important steps that the President, with the support of 
Congress, has taken to better secure our country against the 
terrorist threat. Those are, the establishment of the 
Department of Homeland Security, and within the Department of 
Homeland Security, just a little over 7 months ago, the 
creation of Customs and Border Protection. I will say that 
under the Department, under the leadership of Secretary Ridge, 
they will make our Nation safer and better able to deal with 
our Nation's terrorist threat.
    You know the priority mission of Customs and Border 
Protection is to protect our country from this threat, but we 
also have some very, very important traditional missions to 
perform. U.S. Customs and Border Protection is creating what 
Secretary Ridge has called ``One Face at the Border'' by 
establishing one agency for our borders. In the past 7-1/2 
months, since it was created, Customs and Border Protection has 
made great strides toward unification. America's borders are 
more secure than when our border responsibilities were 
fragmented among four different agencies and three departments 
of government, which was the case before March 1 of this year 
and before the creation of the Department of Homeland Security.
    Now, I want to mention two steps that we have taken, only 
two that we have taken, to unify Customs and Border Protection. 
One of the important steps is the decision that all 18,000 CBP 
inspectors, whether they be legacy immigration or customs or 
agriculture, should have one uniform, not three different 
uniforms. One Face at the Border certainly means one uniform at 
our ports of entry, both internally so we identify as one 
agency, and externally so the 200 million to 300 Million people 
that arrive in the United States at our international airports 
and across our land borders see that we do have one agency at 
our border, not three different agencies and three different 
uniforms.
    And by the way, I have here today a Customs and Border 
Protection inspector--Inspector Chausse, will you stand up? 
This is the new uniform of Customs and Border Protection. And I 
don't know--maybe you could step forward. You will see this is 
worn by all legacy inspectors. We started rolling out this 
uniform in August, and in 9 months we will have this uniform 
deployed for all of the 18,000 inspectors at Customs and Border 
Protection.
    The patch on the sleeve, if you could turn sideways--he is 
a very good model, isn't he? The patches, of course, have the 
name of the agency, U.S. Customs and Border Protection; and in 
the center of the patch is the seal and the logo of the United 
States Department of Homeland Security. That is a very 
important unifying step.
    You can sit down.
    A second and very significant step was announced by 
Secretary Ridge in early September, last month, and that is the 
creation of the CBP officer position and a new agriculture 
specialist position for Customs and Border Protection. Moving 
to the new CBP officer, by the way, will--first of all, of 
course, it is going to help us unify as one agency, rather than 
three separate agencies at our ports of entry. More 
importantly, in my judgment, we will be able to perform the 
priority mission, the antiterrorism mission, the homeland 
security mission more effectively.
    We will be able to perform our traditional missions, 
including our very important mission of protecting United 
States' agriculture against diseases and pests, and traditional 
missions historically of customs and immigration. We are going 
to be able to perform those traditional missions more 
effectively. And lastly we will be able to, with the CBP 
officer position, eliminate the disparities of pay and overtime 
that currently exist among the legacy inspectional work forces 
in Customs and Border Protection.
    We are no longer hiring for legacy Immigration inspectors 
and Customs inspectors. We have begun training a new cadre of 
CBP inspectional officers starting this month, who will be 
equipped to handle all primary and secondary inspection 
functions in both the passenger and cargo environment. We have 
also established a CBP Agriculture Specialist position to 
perform the highly specialized agriculture inspection function 
at both passenger and cargo processing areas.
    By the way, we will have--I know I spoke by phone with Mr. 
Goodlatte, but we will have a number of Agriculture Specialists 
that will be at least equal to the number of current 
Agriculture Quarantine inspectors at our ports of entry; and we 
will also have CBP officers who have received significant 
training with respect to the agriculture protection function.
    We have created a basic training program that will be 
followed by post-basic-inspection training at port, classroom 
training, and on-the-job training, and I will tell you that no 
CBP officer will perform any duties until they are 
appropriately and adequately trained to do them and we will 
continue to rely on the expertise, which is extraordinary, of 
18,000 current inspectional officers at our ports of entry.
    I expect the first class of CBP officers will graduate from 
the Federal Law Enforcement Training Center next January, and 
then in the Spring of 2004, current legacy immigration and 
customs inspectors will be converted to CBP officers and 
receive cross-training.
    Current Agriculture Quarantine Inspection officers will 
have an opportunity to become CBP officers or CBP agriculture 
specialists. If they opt for CBP officers, they will be 
backfilled in those positions as agriculture specialists.
    We are moving out to achieve the President's and the 
Secretary's goal of One Face at the Border, and that is one 
unified, flexible and effective agency to better manage 
security and control our country's borders. There is, of 
course, much more to do and with the help of this 
subcommittee--the full committee and this subcommittee--I hope 
to do it.
    Mr. Chairman, let me conclude by saying that I believe we 
have forged a good relationship with this subcommittee. I look 
forward to strengthening that relationship with the 
subcommittee and the full committee, and I know that, working 
together, I am confident that we can further protect and secure 
our country's borders.
    I want to thank you for giving me the opportunity to take a 
little bit more time than ordinary to summarize things, but I 
would be happy to answer any questions that you, Mr. Chairman, 
or any members of the subcommittee might have.
    [The statement of Mr. Bonner follows:]

          Prepared Statement of The Honorable Robert C. Bonner

    Chairman Camp, Ranking Member Sanchez, Members of the Subcommittee, 
thank you for this opportunity to testify. I am pleased to appear 
before you today to discuss U.S. Bureau of Customs and Border 
Protection, our efforts to achieve ``one face at the border,'' and our 
work in improving border security since September 11, 2001.
    Although over two years have passed since 9-11, that day remains as 
vivid in all of our memories today as it was two years ago. We still 
grieve for the 3,000 innocent people whose lives were cut short on that 
day and for their families and loved ones. The horror and the anger 
that we all felt as a result of the terrorist attacks on 9-11 have not 
changed in the two years that have passed.
    But today I will tell you about some of the things that have 
changed.

DHS
    The creation of the Department of Homeland Security is one very 
important step--perhaps the most important step here at home--that 
President Bush and our nation have taken to address the ongoing threat 
of international terrorism, a threat that is likely to be with us for 
years to come. With our federal government's prevention, preparedness, 
and response capabilities now under one roof, in one department of 
government, and with that department under the outstanding leadership 
of Secretary Ridge, our nation will be--and already is--safer and 
better able to deal with the terrorist threat.

BCBP
    The creation of U.S. Bureau of Customs and Border Protection, or 
``BCBP''--this new agency within the Department of Homeland Security's 
Border and Transportation Security Directorate--is another 
extraordinarily important step in addressing the terrorist threat. In 
fact, the BCBP merger is a big part of the Department of Homeland 
Security reorganization to better protect our Nation's borders. BCBP is 
the largest actual merger of people and functions going on in the 
Department of Homeland Security. Indeed, about one-fourth of the 
personnel of DHS are in BCBP. That's not surprising considering how 
important the security of our borders is to the security of our 
homeland.
    To create BCBP, on March 1, we took most of U.S. Customs and merged 
it with all of the immigration inspectors and Border Patrol from the 
former INS, the agriculture border inspectors from the Department of 
Agriculture's Animal and Plant Health Inspection Service. This means 
that for the first time in our country's history, all agencies of the 
United States Government with significant border responsibilities have 
been unified into one agency of our government, one agency to manage 
and secure our Nation's borders.
    As U.S. Customs and Border Protection, we are creating, as 
Secretary Ridge has called it, ``One Face at the Border,'' by 
establishing one agency for our nation's borders. In the seven and a 
half months since it was created, U.S. Customs and Border Protection 
has made significant strides toward unification. And America's borders 
are safer and more secure than we were when border responsibilities 
were fragmented among different agencies in three different departments 
of government, as they were before March 1, 2003, as they were before 
the creation of the Department of Homeland Security.
    On day one, March 1, 2003, we designated one Port Director at each 
port of entry and put in place a single, unified chain of command. And 
in terms of an immediate increase in antiterrorism security, on day 
one, all frontline, primary inspectors at all ports of entry into the 
United States were equipped with radiation detection devices. Since 
March 1, 2003, all inspectors have received antiterrorism training.
    We have begun rolling out unified BCBP primary inspections for U.S. 
citizens at international airports around the country. It is presently 
operational in 8 major airports (Dulles, Houston, JFK, Newark, LAX, 
Atlanta, Miami, San Francisco), and will be operational at ten 
additional airports by the end of this month. By the end of this 
calendar year, we will have 60 airports conducting unified primary 
inspections for U.S. citizens. This a major step forward in eliminating 
the process of travelers potentially having to ``run the gauntlet'' 
through three separate inspection agencies; separate questioning and 
inspections for customs, immigration, and agriculture.
    Although legacy customs and immigration inspectors for years have 
been interchangeable at the land border ports of entry, this is the 
first time unified primary is being done at our country's airports. 
Significant cross-training is being provided to our frontline 
inspectors to ensure effective implementation, as is counterterrorism 
training is creating a better understanding of terrorist issues and 
better referrals to the secondary area. Along with unified primary, we 
are developing specialized immigration and customs antiterrorism 
response teams and consolidating our passenger analytical targeting 
units.
    We have also begun rolling out a new BCBP uniform and patch for all 
BCBP inspectors at our Nation's ports of entry, that will replace the 
three different customs, agriculture, and immigration inspectional 
uniforms and patches. The new uniform and patch represent our most 
visible unifying symbols to the American public. The new uniform is 
being implemented in four phases. In the first phase, completed as of 
October 1, 2003, all BCBP managers and supervisors converted to the new 
uniform. Other BCBP uniformed personnel will be phased in at various 
points over the next nine months, with implementation scheduled to be 
complete by July 31, 2004.

BCBP Officer
    All of these things are helping us unify and become more effective 
as an agency; however, our most significant step toward achieving ``One 
Face at the Border'' was announced by Secretary Ridge last month on 
September 2, 2003: the rollout of the new ``BCBP Officer'' position. 
Starting this month, we will no longer be training legacy 
``immigration'' or ``customs'' inspectors. We will be training a new 
cadre of ``BCBP Officers,'' who will be equipped to handle all BCBP 
primary and many of the secondary inspection functions, in both the 
passenger and cargo environments. We will also be deploying BCBP 
Agriculture Specialists to perform more specialized agricultural 
inspection functions in both these environments.
    Training is a very important component to the roll out of the BCBP 
Officer. We have created a new 71-day basic course that provides the 
training necessary to conduct primary processing and have a familiarity 
with secondary processing of passengers, merchandise, and conveyances, 
in all modes of transport--air, sea, and land. The new BCBP Officer 
course was built from the 53-day basic Customs inspector course and the 
57-day basic Immigration inspector course, with redundancies removed, 
and with additions to address anti-terrorism and BCBP's role in 
agriculture inspection. The training also supports the traditional 
missions of the legacy agencies integrated in BCBP.
    Our first BCBP Officers were hired on September 22, 2003, and they 
have already started training at the Federal Law Enforcement Training 
Center (FLETC). The first BCBP Officer class started training on 
October 8, 2003, and two additional classes started yesterday. All of 
our BCBP Officer classes for the months of October and November are 
filled, for a total of 480 new BCBP Officers by the time their training 
is complete. We are now in the process of filling our classes for 
December.
    In the spring of 2004, current legacy Customs and Immigration 
inspectors will be converted to BCBP Officers and will begin cross-
training for their broadened responsibilities. Current Agriculture 
Quarantine inspectors will have an opportunity to become BCBP Officers 
or BCBP Agriculture Specialists.
    We are moving out quickly to achieve the President's and the 
Secretary's goal of ``One Face at the Border,'' that is, one unified, 
flexible, and effective agency to better manage, control, and secure 
our Nation's borders.

Priority Mission and Traditional Missions
    The priority mission for our BCBP Officers and for our entire 
agency is homeland security. For the unified border agency of our 
country, that means detecting and preventing terrorists and terrorist 
weapons from entering the United States. We are doing everything we 
reasonably and responsibly can to carry out that extraordinarily 
important priority mission.
    But we are also continuing to carry out the traditional missions of 
the predecessor agencies that make up U.S. Customs and Border 
Protection. These missions include, among others:
<bullet> seizing illegal drugs and other contraband at the U.S. border;
<bullet> apprehending people who attempt to enter the United States 
illegally;
<bullet> determining the admissibility of people and goods;
<bullet> protecting our agricultural interests from harmful pests and 
diseases;
<bullet> regulating and facilitating international trade;
<bullet> collecting duties and fees--we collected over $23 billion last 
year alone;
<bullet> and enforcing all laws of the U.S., including trade and 
immigration laws, at our borders.

Twin Goals
    As U.S. Customs and Border Protection works to carry out its 
priority antiterrorism mission and its traditional missions, we have 
devised ways to do so without choking off the flow of legitimate trade 
and travel, so important to our nation's economy and our openness as a 
nation.
    I learned the need to do this most graphically on September 12, 13, 
and 14, 2001. On 9-11, U.S. Customs went to its highest level of 
security alert--short of shutting down our borders. On September 12, 
2001, wait times at our land borders skyrocketed from 10 to 20 minutes, 
to 12 hours at many of our major land border entry points. The border 
with Canada virtually shut down.
    And the consequences for our ``just in time'' economy were quickly 
apparent. Some U.S. auto plants began to shut down by September 14th.
    To preserve the U.S. economy, indeed, the North American economy, 
we needed to reinvent the border. We needed a more secure border 
because of the terrorist threat. But we also knew that, as we added 
security, we needed to ensure the continued movement of legitimate 
cargo and people through our borders. That's why we have twin goals: 
(1) increasing security and (2) facilitating legitimate trade and 
travel.
    We have learned that by using advance information, risk management, 
and technology, and by partnering with other nations and with the 
private sector, these goals don't have to be mutually exclusive. Since 
9-11, we have developed ways to make our borders more secure that also 
ensure the more efficient flow of legitimate trade and travel.
    Today, I will tell you about some of the things U.S. Customs and 
Border Protection has done in the past two years--and is continuing to 
do today--to carry out those twin goals--things we've done and are 
doing to ``reinvent the border.''

Staffing and Technology Increases
    Before 9-11, we had about 1,000 customs inspectors and about 500 
immigration inspectors on our shared 4,000 mile border with Canada. 
Most of the lower volume border crossings were not open 24 hours a day. 
There was no security when they were closed, other than an orange cone 
in the road. An orange cone was all that stood in the way of someone 
driving a vehicle from Canada into the United States on a paved 
highway. That vehicle could have terrorists or terrorist weapons or it 
could be a weapon--a car bomb.
    That was unacceptable. So, right after 9-11, I directed that all 
border crossings be staffed with two armed Customs inspectors 24x7. 
Because I didn't want inspectors doing this forever--the 24x7 staffing 
was a temporary measure--I mandated ``hardening'' and electronic 
monitoring of our low volume northern ports of entry to prevent 
unauthorized crossings. This meant installing gates, signs, lights, and 
remote camera surveillance systems, which we have done.
    I have received significant staffing increases for the northern 
border, supported by the Administration. Today, we have over 2,900 BCBP 
inspectors along the northern border, up from about 1,600 on 9-11. We 
have also bolstered our staffing on the southern border. We know that 
terrorists have and will use any avenue they can to enter our country. 
Prior to September 11th, we had 4,371 inspectional staff at the 
southern ports of entry. Today, we have almost 4900 standing ready to 
protect us.
    We also added sophisticated detection technology, such as large 
scale x-ray type machines that can scan an entire tractor trailer truck 
in a couple of minutes. There are now 24 such machines deployed at all 
the significant commercial crossings between Canada and the United 
States. There were exactly zero on 9-11. Nationwide, we have increased 
the number of whole container x-ray-type machines from 63 on 9-11 to 
134 today.
    We know that securing the areas between the ports of entry is just 
as important as adding security at the ports of entry. A chain, after 
all, is only as strong as its weakest link. Terrorists, just like 
others who seek to enter the U.S. illegally, may attempt to enter 
through official crossings with phony documents, or they may attempt to 
evade detection by crossing in areas between ports of entry.
    BCBP's Border Patrol is responsible for patrolling those areas and, 
using sophisticated sensor technology, detecting those who attempt to 
illegally enter the U.S. between the ports of entry. Since March 1 of 
this year, the Border Patrol is a part of U.S. Customs and Border 
Protection, and we are revising and refocusing the Border Patrol's 
strategy--which had been principally focused on preventing the flow of 
illegal aliens and drugs crossing between ports of entry on our border 
with Mexico--to include an aggressive strategy for protecting against 
terrorist penetration, at both our northern and southern borders.
    On 9-11, there were only 368 authorized positions for Border Patrol 
agents for the entire northern border. We are currently at 558. We have 
selected an additional 220 positions, and the other 222 are in the 
process of being selected. With the relocation funds from the 2003 War 
Supplemental, we will meet our goal of having 1,000 agents on the 
northern border by March 2004.
    This staffing increase will better secure our border against 
terrorist penetration. But we are doing more than just adding staffing. 
We are adding sensors and other technology that assist in detecting 
illegal crossings along both our northern and southern borders, 
including Remote Video Surveillance (RVS) systems. These RVS systems 
are real-time remotely controlled force enhancement camera systems, 
which provide coverage along the northern and southern land borders of 
the United States, 24 hours per day, 7 days a week. The RVS system 
significantly enhances the Border Patrol's ability to detect, identify, 
and respond to border intrusions, and it has a deterrent value as well.
    There are currently 238 completed Remote Video Surveillance (RVS) 
sites in operation; 170 along the southwest border and 68 along the 
northern border. An additional 224 installations are in progress.

C-TPAT
    One thing that was apparent as we confronted post 9-11 security 
issues was that support of the private sector was essential. A 
comprehensive border security strategy for our nation and for global 
trade simply had to include the private sector, because they are the 
ones who own the supply chain. We also knew that we could offer 
something to the private sector in return for increased security: 
expedited processing at the borders--air, land, and sea.
    From those realizations, the Customs-Trade Partnership Against 
Terrorism was born as an idea in November 2001. As many of you know, C-
TPAT is a partnership between Customs and Border Protection and the 
trade community to implement security standards and best practices that 
better protect the entire supply chain against exploitation by 
terrorists--from foreign loading docks to our ports of entry. In 
exchange, companies that meet our security standards get the fast lane 
at and through our borders.
    C-TPAT was launched in January 2002. Within one year, in January 
2003, we had over 1,600 companies participating in the program. Today, 
we have over 4,300 companies participating.
    That number demonstrates that many businesses recognize their role 
in, in fact, their responsibility to take part in, security efforts. 
Even more importantly, it indicates that because of C-TPAT, trade is a 
lot safer from terrorist exploitation.
    Presently, BCBP has initiated the validation process for over 130 
C-TPAT certified companies. These companies are in different stages of 
their validation process with 100 scheduled to be complete by November 
2003. Validations serve to determine the accuracy and effectiveness of 
the companies' security profiles as applied to their supply chain, both 
foreign and domestic.
    BCBP is also coordinating with other agencies to look at 
opportunities to leverage resources and technology, and to develop 
policy that supports a comprehensive and coordinated approach to cargo 
security. For example, TSA and BCBP are looking at the operational 
feasibility of coordinating TSA's Known Shipper program to BCBP's C-
TPAT initiative in the air cargo environment. Although these programs 
have distinct goals and objectives, information on shipper legitimacy 
gained through Known Shipper may help to strengthen C-TPAT's foreign 
and domestic supply chain security validation process; conversely, C-
TPAT certification helps ensure a greater degree of in-transit security 
and integrity as cargo is transported through the supply chain.

FAST
    Another important post 9-11 initiative--one that draws upon the 
Customs-Trade Partnership Against Terrorism--is the Free and Secure 
Trade, or FAST program along our northern border with Canada. The way 
the FAST program works is that importers, commercial carriers (i.e., 
trucking companies), and truck drivers enroll in the program and, if 
they meet our stringent mutually agreed to security criteria, they are 
entitled to expedited clearance at the border.
    Participation in our C-TPAT program is required for those who want 
to bring goods from Canada into the U.S. through the FAST lane and for 
the trucking company also. Indeed, the truck drivers themselves must be 
vetted as well for security.
    FAST is operational in 28 lanes at six major commercial crossings 
along the northern border. We are about to begin implementing a pilot 
FAST program with Mexico on our southern border. On October 27, 2003, a 
dedicated FAST lane will become operational in El Paso. If adequate 
security is achieved with this FAST pilot project at El Paso, 
particularly against drug smuggling, I expect that FAST will be 
expanded to other major commercial crossings on our border with Mexico.

CSI
    In the wake of 9-11, we realized that we had to begin pushing our 
zone of security outward. We wanted our borders to be our last line of 
defense against the terrorist threat, not our first line of defense. 
This is the ``extended border,'' defense-in-depth concept, or what 
Secretary Ridge has aptly called a ``Smart Border.''
    C-TPAT and FAST are extended border initiatives. Another extended 
border, smart border initiative, is CSI, the Container Security 
Initiative. National security experts consider the vulnerability of 
cargo containers to terrorist exploitation to be chilling, especially 
the prospect that one of the seven million containers shipped to the 
U.S. annually could conceal a weapon of mass destruction.
    Given this vulnerable system, we needed to develop and implement a 
program that would enable us to better secure containerized shipping--
the most important means of global commerce--against the terrorist 
threat. That program, which I proposed in January 2002, is CSI.
    Under CSI, BCBP has entered into bilateral partnerships with other 
governments to identify high-risk cargo containers and to pre-screen 
them before they are loaded on vessels destined for the United States. 
It involves stationing small teams of U.S. Customs, now BCBP, personnel 
at the foreign CSI ports to identify and target containers that might 
pose a potential terrorist security risk.
    The initial goal was to implement CSI at the top 20 ports in terms 
of the volume of cargo containers shipped to the United States, because 
those top 20 ports alone account for two-thirds, nearly 70%, of all 
containers shipped to U.S. seaports, and because most cargo shipments 
from high-risk countries are transshipped through these ports.
    Today, governments representing 19 of those top 20 have signed up 
to implement CSI. And we have actually already implemented CSI at 16 
foreign seaports. These ports include 9 in Europe (Antwerp, Rotterdam, 
Le Havre, Felixstowe, Genoa, La Spezia, Bremerhaven, Hamburg, and 
Gothenburg, Sweden); 4 in Asia (Singapore; Hong Kong; Yokohama, Japan; 
and Pusan, Korea); and the 3 Canadian ports of Vancouver, Montreal, and 
Halifax.
    With nearly all of the top 20 are on board, we have begun Phase 2 
of CSI, where we are expanding beyond the top 20 to additional foreign 
ports.

24-Hour Rule
    A key to CSI's success, and the success of other Smart Border 
initiatives, is advance information. For example, in order to identify 
high-risk containers before they leave foreign ports, we need the 
manifest information before the cargo is put on board those ships.
    Last fall, I issued a rule, the so-called ``24-hour rule,'' that 
required transmission of complete manifest information for sea cargo to 
U.S. Customs 24 hours in advance of lading. Through that rule, BCBP is 
getting information that allows us to identify containers we need to 
take a closer look at--ones that raise security concerns.

Trade Act Proposed Regulations
    And U.S. Customs and Border Protection has worked closely with the 
trade community to develop regulations that will require advance 
electronic information for the other modes of transportation--
commercial trucks, rail, and air cargo.
    Our proposed regulations were published in late July. When final, 
these regulations, like the 24-hour rule, will permit better risk 
management for the terrorist threat, before cargo shipments reach the 
U.S. border ports of entry.

Advance Passenger Information
    Advance information is also critical to our efforts to identify 
individuals who may pose a security threat. Before September 11th, 
2001, air carriers transmitted some advance information on 
international airline passengers to U.S. Customs on a voluntary basis. 
In late 2001, we sought, and Congress enacted, legislation that would 
make the transmission of advance passenger information mandatory.
    U.S. Customs, now BCBP, implemented that legislation, and moved 
aggressively to achieve compliance from all air carriers as soon as 
possible. In less than a year, we achieved a 99% compliance rate. BCBP, 
through our combined customs and immigration authorities, uses that 
information to evaluate and determine which arriving passengers pose a 
potential terrorist risk.

NEXUS and SENTRI
    Since 9-11, BCBP has pressed forward with initiatives with both 
Canada and Mexico that enable us to focus our resources and efforts 
more on high-risk travelers, while making sure those travelers who pose 
no risk for terrorism or smuggling, and who are otherwise legally 
entitled to enter, are not delayed at our mutual borders.
    Our program with Canada is the NEXUS program. Under NEXUS, frequent 
travelers whose background information has been run against crime and 
terrorism indices are issued a proximity card, or SMART card, which 
allows them to be waived expeditiously through the port of entry. NEXUS 
has expanded to eight crossings on the northern border, including ports 
of entry at Blaine, Washington; Buffalo; Detroit; and Port Huron. 
Approximately 50,000 people have enrolled in the program so far.
    With Mexico, we have the SENTRI program. Like NEXUS, SENTRI is a 
program that allows low-risk travelers to be processed in an expedited 
manner through a dedicated lane at our land border with less delay. 
SENTRI is currently deployed at 3 southwest border crossings: El Paso, 
San Ysidro, and Otay Mesa.

US VISIT
    Another new tool for border security and enforcement, with respect 
to travelers entering and exiting our country, is the US-VISIT program 
currently being developed. US-VISIT will capture point of Entry and 
Exit information by visitors to the United States. This system will be 
capable of using information, coupled with biometric identifiers, such 
as photographs and fingerprints--to create an electronic check-in/
check-out system for people who come to the United States to work or to 
study or visit. Through US-VISIT, all border officers at air and some 
sea ports of entry will have the capability to access and review the 
visa information, including the photograph, during a visa holder's 
entry into the United States. BCBP is working with the US-VISIT office 
in developing the training and implementation facets of the US-VISIT 
system.

National Targeting Center
    One of the greatest challenges--if not the single greatest 
challenge--we face in the war on terrorism is determining who and what 
to look at. BCBP has broad power to question and search every person, 
vehicle, and shipment of goods entering the U.S. How do we sort out who 
and what to look at, question, and inspect?
    In October 2001, U.S. Customs established a National Targeting 
Center--using automated risk management for the first time at the 
national level--to help us meet the challenge of identifying potential 
terrorist threats to our country. Remember, our priority mission is 
detecting and preventing terrorists and terrorist weapons from entering 
our country. Our National Targeting Center in Virginia is an essential 
tool for carrying out our priority mission.
    The Center gathers the advance electronic information I talked 
about, and uses our Automated Targeting System for passengers and cargo 
to identify what is high risk--to identify potential terrorists and 
terrorist targets for follow up at U.S. ports of entry and CSI ports.
    The National Targeting Center has given us the ability to locate 
and eliminate terrorist threats before they become a reality, and it 
did not exist on 9-11.

Comprehensive Strategy to Address Nuclear and Radiological Terrorism
    One of the greatest terrorist threats is the threat of nuclear and 
radiological terrorism--nuclear devices and RDDs, or so-called dirty 
bombs. This threat, particularly the threat of nuclear devices, is 
largely an external one--meaning someone would have to bring the device 
across our borders and into this country.
    This past year, BCBP developed a Comprehensive Strategy for 
addressing that threat. Our plan focuses on several components, one of 
which is maintaining a secure border at our ports of entry that is 
capable of detecting potential nuclear and radiological devices.
    BCBP's current deployment of radiation detection technology 
includes: over 8,000 personal radiation detectors, or PRDs, over 300 
radiation isotope identifiers; and over 60 radiation portal monitors 
deployed. It should go without saying that we must and are continuing 
to steadily increase our deployment of radiation detection technology, 
but what we have today is a vast improvement over what we had on 9-11.

Chemical/Explosive Detection Dogs
    Another terrorist threat is the threat of explosives and chemicals 
that could be used as terrorist weapons coming across our borders. For 
years, BCBP has used canines to detect illegal drugs and even cash, but 
after 9-11, we began training dogs to detect explosives and chemical 
weapons of mass destruction. These talented dogs are an important 
resource in our antiterrorist efforts. And on 9-11, this resource did 
not exist--we had no chemical/ explosive detection dogs at our ports of 
entry.
Conclusion
    The efforts I have talked about today are the result of this 
Administration, this Congress, and the vision and leadership of the 
Secretary of the Department of Homeland Security, Tom Ridge. The 
creation of DHS and the unification of the border agencies within BCBP 
are among the most significant of those efforts. They enable us to have 
a more comprehensive and effective strategy as we press forward with 
our many initiatives for protecting and securing America's borders.
    Although I have only covered some of our efforts since 9-11, I hope 
I have given you a sense of where we are today, as compared with where 
we were two years ago. We have made great strides. America is safer. 
Our borders are more secure against terrorists and their weapons of 
terror than they were two years ago.
    But our work is far from finished. There is much more to do. And 
rest assured, I and all the men and women of U.S. Customs and Border 
Protection are continuing to push full steam ahead. We are also working 
hard to become the truly unified agency that we know we can and should 
and will be--so that we can be the more effective, more efficient 
agency that the American people expect and deserve.
    Mr. Chairman, let me conclude by noting the important working 
relationship BCBP has forged with this Subcommittee. I have had the 
pleasure of meeting and talking with many of this Subcommittees' 
members, including you, Mr. Chairman, on a number of issues. I am very 
impressed with this Subcommittee's concern for, and expertise in, port 
and border security. As an example, Congressmen Shadegg and Souder and 
I have been in regular contact on a border security matter of mutual 
concern and we have made good progress working together. I know from my 
staff that the staff-to-staff relationship between BCBP and this 
subcommittee is, as it should be, very strong. This is critically 
important as we move forward and identify legislative and budgetary 
initiatives that will further protect and secure our nation.
    Thank you. I would be happy to answer any questions you may have.

  CUSTOMS AND BORDER PROTECTION ACADEMY'S NEW BASIC CBP OFFICER COURSE

    U.S. Customs and Border Protection (CBP) is creating ``One Face at 
the Border'' by integrating people, processes, training and 
technologies from three federal agencies with border responsibilities 
into one unified border agency. Unified training is the foundation of 
these integration efforts.
    Beginning with the first class of CBP Officers in October 2003, the 
CBP Academy now delivers a new basic training curriculum that provides 
important knowledge and skills needed to perform the duties of this 
critical frontline officer position. The comprehensive and integrated 
basic CBP officer course provides the training necessary to support the 
priority mission of CBP--detecting and prevention terrorists and 
instruments of terror, including weapons of mass destruction, from 
entering our country.
    With the formation of CBP in the Department of Homeland Security, 
three different inspectional workforces joined together at our nation's 
ports of entry. Prior to that time, separate training was provided in 
separate academies. Now, with the establishment of a unified frontline 
officer, an integrated training course ensures that the CBP Officer is 
fully equipped to carry out all of the functions of his or her 
position.
    What's new? For the first time, one basic course provides the 
training necessary to conduct primary processing and have a familiarity 
with secondary processing of passengers, merchandise, and conveyances, 
in all modes of transport--air, sea and land. The 71-day CBP officer 
course was built from the 53-day basic Customs inspector course and the 
57-day basic Immigration inspector course, with redundancies removed, 
and with additions to address anti-terrorism and CBP's role in 
agriculture inspection.
    The training also supports the traditional missions of the legacy 
agencies integrated in CBP, which includes interdicting illegal drugs 
and other contraband, apprehending or denying entry to people seeking 
to enter the United States illegally, protecting U.S. agricultural and 
economic interests from harmful pests and diseases, and regulating and 
facilitating international trade and collecting revenue.
    With the first graduation slated for early January 2004, the CBP 
Academy expects to graduate approximately 300 CBP officers a month.
    However, the training does not stop there. There is a comprehensive 
technical and structured In-Port training program which is a 
combination of classroom, computer-based and on-the-job training.

?

                                   18

                     INTEGRATED CBP OFFICER COURSE

                              CBP Academy

Objective: Graduates will be proficient at the trainee level in 
  primary inspection operations and familiar with secondary 
  processing.

Duration: 71 days 111.8 weeks (based on 6 days per week).

Major Components (entire course focuses on priority mission of 
  anti-terrorism):

Anti-Terrorism                       Constitutional Border Search 
Integrity                            Authority
Nationality Law                      Officer Conduct and 
TECS/NAILS/NSEERS/ACS                Professionalism
Grounds of Inadmissibility           Non-Immigrant Classification / 
Interviewing Techniques              Processing
Agriculture Threats                  Immigration Classification / 
Firearms Usage                       Processing
Physical Conditioning                Document Examination
Practical Exercises                  Trade Processing
Inspection Technology                General Inspection Procedures
                                     Officer Safety and Basic 
                                     Enforcement
                                     Arrest Techniques and Defensive 
                                     Tactics
                                     First Aid/CPR
                                     Identifying Drugs

                In-Port Training Program (Post-Academy)

Objective: Graduates will be proficient at the trainee level in 
  secondary processing.

Duration: Estimate 30+ classroom 1 computer-based training days 
  and approximately 100 on-the-job training days during the first 
  year after completing the CBP Academy.

Major Components:
      <bullet> JT on Unified Primary--all modes (air, land and 
        sea)
      <bullet> Immigration Secondary--all modes
      <bullet> Immigration Secondary--sea crewmembers
      <bullet> Customs Secondary Passenger--all modes
      <bullet> Customs Secondary Cargo--all modes
      <bullet> Agriculture Secondary Cargo and Passenger--all 
        modes


    Mr. Camp. Well, thank you very much, Commissioner, for your 
testimony.
    We will begin the questioning now. I just have a couple of 
questions.
    On a recent visit to the border, I was struck by the 
discussion in terms of trying to find out what people did, that 
were either a legacy customs individual or legacy immigration 
individual, so I welcome the unifying of these positions.
    What process did DHS use to determine that these functions 
could be unified, and was there a working group or task force 
set up that participated in this?
    Mr. Bonner. Yes. First of all, at the very beginning, 
shortly before March 1, which was the date the reorganization 
began at Customs and Border Protection, I established a 
transition team. The transition team is made up, by the way, of 
individuals from all of the legacy agencies--legacy 
Immigration, legacy Customs, legacy Agriculture. Among the 
things the transition team was tasked to look at were unifying 
symbols like uniforms and the like. A separate working group 
was set up to take a look at, and study, the jobs that were 
performed by the inspectional work force within CBP.
    That group did do a rigorous analysis of the job 
descriptions, the job duties, the similarities, by the way, in 
the skills that are employed by all of the inspectional work 
force. Different levels, different kinds of knowledge in terms 
of different areas, but the skills, by the way, are very 
similar, if not substantially the same.
    In any event, it was based upon that analysis that we 
concluded that you could have essentially an inspectional 
officer for CBP, Customs and Border Protection, that could 
perform, with appropriate and adequate training, multiple 
functions.
    I want to also say, by the way, there is some notion that 
perhaps you train somebody to do all functions at all times, 
but that is not the case at all. Each port of entry will make 
an assessment as we go forward in terms of the needs of that 
particular port of entry, and there are certainly going to be 
specialized areas within the CBP officer. Let me name a couple.
    Canines: We will continue to have a canine officer; that is 
a specialized skill. A CBP officer that wants to go into that 
will get some special further training to become a canine 
officer.
    The same for the analytical units for cargo and people.
    So there will be some specialized areas and training that 
will be given to CBP officers for some specific needs that we 
have as we go forward.
    Of course, we will also have the existing expertise of the 
work force, which is 18,000 men and women, about 10,000 of them 
are legacy Customs, 6,000 legacy Immigration and there are 
about 1,500 Agriculture quarantine inspectors, plus 500 techs. 
So that is the process.
    We looked at it hard. By the way, we looked at it with an 
open mind; we did not say whether this could or could not be 
done. The conclusion is that it could be done, that you could 
train for more multifunctionality, and this ultimately would 
make us more effective not just for our traditional missions, 
which it will, but also our homeland security mission.
    Mr. Camp. I realize it is new, but what kind of feedback 
are you getting on the unification of the responsibilities?
    Mr. Bonner. First of all, I have had extensive discussions 
with our people in the field. Many of these have been through 
town hall meetings that I have had around the country, other 
top management of Customs and Border Protection have had. We 
received, through discussion and dialogue, a lot of feedback 
that way.
    We have had discussions with the trade community, with 
other stakeholders, about this; and essentially we have made a 
significant effort to explain what we are doing, how we are 
doing it, what the rollout-type period is for it. And so we 
have gotten a lot of feedback or input in that manner as well.
    Mr. Camp. Okay. Thank you.
    And now I will recognize Ms. Sanchez for any questions that 
she may have. .
    Ms. Sanchez. Thank you, Mr. Chairman.
    Thank you for being before us.
    I have a question. I am trying to figure out what your 
initial academy training does. From what I could read and from 
what I understand, it is now a 71-day course. But before, when 
you had Customs and Immigration--you had a Customs-only course 
that lasted 53 days and an INS course that lasted 57 days; that 
is 110 days. Now you only have 71 days.
    So does that mean that you are cutting some things out, 
that there was overlap on some? Why would the two separate ones 
have so many days and this one be pared down?
    Mr. Bonner. It is a good question. The reality is that we 
are actually adding something to it. There was a lot of overlap 
between training for legacy Immigration and legacy Customs. 
There was 24 hours of that training devoted to the legacy 
Customs inspector for Immigration training; and Immigration got 
about 24 hours of Customs training in the old program. So there 
was overlap in that sense, and I will tell you why in a minute.
    There was overlap in terms of firearms training; and 
practical exercises, training and the like, there was quite a 
bit of overlap. And the reason for it is, when you start 
thinking about Customs--legacy Customs or legacy Immigration 
doing each other's functions for over 20 years, Customs 
inspectors at the land border ports of entry have been doing 
both--certainly primary for both Immigration and Customs 
purposes; and Immigration inspectors at our land border have 
been doing inspectional primary for both Customs and 
Immigration purposes. That has been going on since the 1970s. 
And so they are cross-designated to do that.
    Now, as we are one agency, you do not need to have a 
separate--with a CBP inspectional officer, you do not need to 
have a separate training that would be cross-training people. 
So that is the reason.
    There was a lot of duplication and overlap in the training. 
A lot of the skill sets that are--for which Immigration and 
Customs inspectors are trained, and by the way even Agriculture 
inspectors to some degree, a lot of the skill sets are the 
same. How do you ask questions of people? How do you read 
behavior? These are skills that both Customs and Immigration 
inspectors have--they have now, by the way, and need to have, 
and you have to train for this.
    The reality is, we have a longer course because it is 71 
days. It is longer than the legacy Customs or Immigration basic 
courses were, significantly longer. We are adding some 
antiterrorism training to that. We are adding some agriculture 
training.
    And the key thing here is to remember that it is not just 
all basic training. That is the way it used to be for Customs 
and Immigration; you got your basic training, and then you were 
just out there. We have basic training, which is that 71 days, 
which by the way translates into 3 months, 6 days a week at 
FLETC. And then there will be post-basic training which will be 
classroom--significant classroom training at the port, in-port 
training as well as on-the-job training.
    So we are doing--the key to part of this--a key component 
is, frankly, a lot more training than either one of these 
inspectional services were doing prior to the creation of 
Customs and Border Protection and the CBP officer.
    Ms. Sanchez. You mentioned earlier that there was a lot of 
discrepancy going on between what the INS, legacy INS and 
legacy Customs was being paid, et cetera. Going back to the 6-
day training week at the academy, I have been told that legacy 
INS are being paid overtime for working the 6-day training, but 
legacy Customs are not being compensated at all for that sixth 
day.
    Can you tell me if that is true? What is the intent to fix 
it? Are we going to work on fixing that? Why the difference?
    Mr. Bonner. First of all, I am glad you asked that. It is 
true, there are disparities and there are significant 
disparities in the pay and overtime systems between legacy 
Customs and Immigration and legacy AQI inspectors, and we need 
to get rid of those discrepancies. We cannot unify as an agency 
until we get rid of them.
    You mentioned one of them, and one of them is that under 
the Customs overtime system, which is called COPRA, you are not 
entitled to the FLSA kind of overtime, but the Immigration 
inspectors are entitled to it. That is one discrepancy that 
benefited legacy Immigration inspectors.
    On the other hand, under COPRA, a Customs inspector can 
credit up to one-half of his overtime to retirement; an 
Immigration inspector cannot. So we need to eliminate these 
disparities, and frankly, I don't think we will ever unify as 
one agency until we do that.
    And the CBP officer allows us to go to essentially one pay 
and one overtime system; the question is, what is it? And I 
have submitted that question to the Department of Homeland 
Security HR design team to come up with options and 
recommendations as soon as possible, but before the end of the 
year to the Department of Homeland Security, so we can have 
that decided.
    Ms. Sanchez. And once you have that decided, will then the 
old legacy go under the new system and everybody will be under 
the new system? There is no problem with switching them over?
    Mr. Bonner. There is a sequence to it, but the answer to 
that is yes. We need to have this decided before the first CBP 
officers graduate in January, and then in March we will convert 
the legacy Customs and Immigration inspectors to CBP 
inspectional officers, and we will have one system. And so it 
will have been decided what that system is. And there will be 
overtime, because we depend on overtime to be able to do our 
job.
    But what is the system? We need to have one system. And 
right now, we do not. There are disparities, and it is unfair 
and it is inequitable. And part of the CBP officer concept 
actually gets us to essentially one pay and overtime system. It 
helps us get there. And by March of next year, we will have one 
pay and overtime system, and we won't have these kinds of 
disparities that you just alluded to that occur right now, and 
every day, because we have three different overtime systems.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Bonner. It is a nightmare to administer, by the way.
    Mr. Camp. I notice the chairman of the full committee is 
here.
    Would the chairman of the full committee seek to inquire 
now?
    Mr. Cox. Sure. Thank you, Mr. Chairman.
    Welcome. Thank you for your outstanding testimony. Let me 
jump ahead to one of the witnesses that we are going to hear 
from shortly, who is concerned with the capacity of your 
officers to cross-train, as it were. Do you want to address 
that?
    Mr. Bonner. Yes, I do. I know there is a concern, and I 
think Ms. Sanchez alluded to it. There is a concern, the jack-
of-all-trades-and-master-of-none concern.
    First of all, we have to remember that we are not starting 
from scratch here. We have 18,000 highly trained inspectors 
that have a high level of expertise in the customs field, in 
the immigration field, and in the agriculture field. So we are 
not just starting everything over. That is number one.
    Secondly--and we intend to and will continue to use that 
expertise. We will be training a CBP officer, though, Mr. 
Chairman, that we will begin rolling out in January, which will 
be--by the way, we are talking about maybe 200 or 300 new CBP 
officers a month that will graduate from the basic training 
down at FLETC. And they will get some very good, solid basic 
training in immigration and in customs procedures and the 
background they need.
    But they are also going to get additional training when 
they go out to the field. And that is the proficiency training, 
that is, the in-port classroom training, so that as you are 
going to assign somebody, let's say to a particular function or 
area, whatever that area or function might be, that you have 
actually not only trained, but you have tested and certified 
that they are capable of performing that function. And only 
then do they get assigned.
    So you are not training 18,000 people--inspectors to do 
everything all at once. What you are doing is, you are training 
them to have--certainly for the antiterrorism mission, you are 
training them for the important traditional missions of Customs 
and Border Protection, and then you have a corps officer which 
you can--with additional training and mentoring and the like, 
that will be--in my judgment will be capable of performing a 
variety of functions that we will need for CBP. Whether that is 
in Immigration or the Customs area or otherwise.
    Mr. Cox. I am a strong supporter of what you are doing. I 
think it is vitally important and vitally necessary. From the 
standpoint of law-abiding U.S. constituents who come across our 
borders, it is maddening to have to provide the same 
information on similar forms to two different parts of the 
Federal Government right as you go through the same port of 
entry. And I think consolidating Customs and Immigration and 
APHIS, something that has been an opportunity for a long time, 
now the creation of the Department enables us to do.
    I also can see that as we implement programs for biometric 
identification of visitors to the United States, some of the 
problems that I think very properly the Immigration inspectors 
are complaining about, the complexity of their jobs, will 
diminish. We have a primary lane and a secondary lane and we 
refer the people from primary to secondary if they have an 
irregular circumstance. It is very easy to imagine, if things 
that are now pilot programs such as US-VISIT and FAST become 
the norm rather than the exception, that the job of your 
inspector is going to be almost entirely focusing on the 
exceptions rather than focusing on the people who are law 
abiding.
    Right now we have it almost backwards. We spend a whole lot 
of time making people stand in line, taking a lot of their 
time, and looking at them when, in fact, we should be looking 
for the needle, not the haystack.
    Can you comment on whether my assumption is correct that 
the expanded use of biometric identifiers will actually make 
this concept more meaningful?
    Mr. Bonner. Well, we are definitely moving there and it is 
going to be helpful. Our whole approach, Mr. Chairman, has been 
to better use advanced information, electronic information, 
technology risk management to sort out the haystack, to narrow 
down the haystack both for people and cargo coming into the 
United States. Biometrics as US-Visit is implemented, is going 
to be a very helpful tool to us, along with the other kinds of 
automated information and technology that we use that permits 
us to not only screen in advance, select in advance, but also 
to screen faster and to have a faster process.
    If I could add one other thing to that is very important: 
As we have unified Customs and Border Protection in one agency, 
let's look at some of the things that are already happening. 
One is that since March 1, we are unifying the passenger 
analysis units. Immigration had theirs at airports and Customs 
had theirs, and obviously you want to merge these and marry 
these together when you are using them for the antiterrorist 
threat.
    By the same token, as you narrow things down, cargo or 
people of concern, you want to use joint secondary teams. You 
do not want just an Immigration secondary that is looking at 
somebody for admissibility purposes or a Customs secondary over 
here that is looking at a potential terrorist threat for 
purposes of searching for drugs or other things. You want both 
of these expertises together and their authorities together.
    We really need to go to the CBP officer to be more 
effective in performing that priority homeland security 
antiterrorism mission so they are more focused on it. It will 
help us better perform our traditional mission because it gives 
us a force multiplier, more people that know the broader 
missions of the agency as well as their traditional missions.
    Mr. Cox. It is abundantly clear that none of the legacy 
agencies that have been folded into the Department of Homeland 
Security had as their primary mission protecting against 
terrorist attack on the United States. That is now the mission 
of the Department and it is now your mission. And it seems to 
me that if people are saying this is not the way we have done 
it for the last 20 years, that that is essentially an 
establishment of nothing because nothing about DHS is the way 
we used to do it.
    We are trying to change. We have got to change, and I 
applaud you for your efforts. Working change in 22 legacy 
agencies is going to be very difficult, but it is vitally 
important because we have a new mission and we have to 
accomplish it.
    Thank you for your testimony.
    Mr. Camp. Thank you.
    Mr. Dicks may inquire.
    Mr. Dicks. Thank you very much for your testimony. And 
being from Washington State, we just had a good trip out there 
with Chairman Cox and Vice Chairman Dunn and had a chance to 
talk to people about the NEXUS program and the FAST program. 
This morning, I had a meeting with the director of our airport 
in Seattle--.
    Mr. Bonner. SEATAC.
    Mr. Dicks. At SEATAC.
    --and basically was told when we go into the VISIT program 
we are going to have problems at the airports because you are 
going to have to put in new equipment and reorganize how you do 
this because of the biometrics. As I understand it, there has 
not been a lot of dialogue between the Department of Homeland 
Security and the airports on this subject and that there ought 
to be.
    In fact we are trying to arrange a meeting to have Ms. 
Lindsey, the Director of Sea-Tac Airport, come down and talk to 
somebody at DHS about this because she thinks this is going to 
be a problem, just like the baggage has been a problem, in how 
you work this out between the airport and the local officials. 
And we had some problems out there this summer over in the TSA 
area in terms of number of people or adequacy of people.
    Do you have any comment on this? Is this your 
responsibility of how US-VISIT is going to be done at airports 
or is that somebody else's responsibility?
    Mr. Bonner. The program itself, Mr. Dicks, is being handled 
at the Department level within the Border and Transportation 
Security Directorate, and that is where the program is headed 
up by Jim Williams.
    That said, of course, Customs and Border Protection are 
participating in the development and particularly the 
practicalities of implementing US VISIT initially, as you know, 
at our international airports, so that it can be implemented in 
a way that does not result in significant wait times in terms 
of processing people into the country-and so that there is a 
meaningful exit, too, by the way. I know there are various 
discussions as to how the exit part initially is going to be 
done.
    I have people at my agency that are participating with the 
Department in terms of working on that issue both from an IT 
issue, and also from a practical operational issue--how does it 
work. I have not gotten a briefing in a week or two on it, but 
there is some good work being done.
    That said, I think it is very important--and I will take 
this back--that we engage with the airport authorities, what 
the plan is, how this is going to be implemented, and how we 
are going to make this work to establish this capability by the 
end of this year to be able to, at least with respect to some 
or all nonimmigrants--I don't know exactly what the universe 
will be there--can be part of those biometrically entered when 
entering into the United States, and we will know when they 
have exited.
    But it is a big priority of the Department of Homeland 
Security. The program is at that level essentially under the 
overall oversight of Secretary Asa Hutchinson at the Border and 
Transportation Security Directorate.
    Mr. Dicks. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you very much.
    Mr. Goodlatte may inquire.
    Mr. Goodlatte. Thank you, Mr. Chairman.
    Commissioner Bonner, your opening statement and some of the 
answers that you have given have enlightened us a little bit 
about our concerns, expressed by myself and Congresswoman 
Sanchez, about agriculture, certainly far more than the very 
paltry amount of information in your testimony.
    However, I would again renew my concern that there are 
numerous questions, far more than my 5 minutes here today are 
going to allow me to get answers to and I must say, I am 
concerned. When you called me, and I appreciated the call; and 
in fact, at that time I raised with you the concern that we 
needed to be briefed, and we still have not been briefed. And 
it was especially disappointing when, after that, we asked for 
a briefing even after this hearing, and we were told that you 
would be too busy, not you personally, but your staff would be 
too busy to brief the committee staff.
    This is not something that is a recent problem. My 
committee has had simple requests for information on the 
specific topic of training for 5 weeks and questions on port 
staffing levels since the first week in August. Can we get that 
briefing?
    Mr. Bonner. Absolutely. First of all, Mr. Goodlatte, after 
we spoke I believe that there was a briefing of your staff or 
the staff of the Agriculture Committee. But if we are remiss, 
if we have not followed up on these things, you have my 
assurance we will promptly follow up and get you the 
information you need.
    Frankly, I would welcome an opportunity to have further 
briefings of your staff on any and all issues that you might 
have. And beyond that, by the way, I am prepared at any time 
personally to meet with you or whoever you think I should meet 
with to provide you the answers to the legitimate questions 
that you and others might have in terms of how we are going to 
address in a way that improves and does not degrade the very 
important mission of protecting American agriculture.
    Mr. Goodlatte. Thank you. We will take advantage of that.
    However, I must say that the input that we would like to 
have in this process has been partially lost. And there is 
nothing in the law that requires that input; however, I would 
note that section 421(d)(3) of the Homeland Security Act 
provides that the Secretary of Homeland Security, in 
consultation with the Secretary of Agriculture, may issue such 
directives and guidelines as necessary to assure the effective 
use of personnel to carry out the functions transferred. And 
that is required under the law.
    And I would ask you, how many such consultative meetings 
between DHS and the U.S. Department of Agriculture occurred 
prior to announcing the One Face at the Border initiative?
    Mr. Bonner. I don't know if I can categorize. I know that 
Jayson Ahern, Commissioner of Field Operations, which would 
oversee the inspectional work force at the ports of entry, I 
know he had discussions with Dr. Dunkle at Agriculture. I know 
I personally outlined the concept of the CBP officer and the 
agriculture--
    Mr. Goodlatte. This was prior to the announcement of One 
Face at the Border?
    Mr. Bonner. Yes, when I say I did--and by the way, also 
before the announcement, I did attempt to--by the way, 
unsuccessfully, just before Secretary Ridge announced this, I 
did attempt to reach Bobby Acord of the Agriculture Department. 
As things turned out, it took several days before we were able 
to connect, but I did give Bobby--.
    Mr. Goodlatte. Let me interrupt you because I have a 
limited amount of time here, a minute left to get to the 
substance of this and the purpose for why we want these to 
occur.
    One of our grave concerns is the amount of training that 
the CBP officers are receiving. Right now, all of the APHIS 
inspectors at the border are required as prerequisite to have 
extensive background, in fact, either comparable experience or 
a B.S. degree in biology, and then after that they undergo a 
10-week or 400-hour training session. And this compares to a 
scant 16 hours of agricultural training with no scientific 
prerequisites for new hires.
    I understand that you have experience there, and we are 
glad you have this, but the new hires have got to, on the spot, 
recognize problems and ask the right questions before they ever 
get to the agriculture specialists being involved. And I have 
herewith, because I cannot go into it because my time has 
expired--but I will ask, Mr. Chairman, that we make it a part 
of the record-- examples of some of the products, some of them 
very innocent looking, like a can of Heinz soup, which is an 
import item coming into the country that is a banned product 
for very specific scientific reasons. There is a risk of BSE in 
that particular case.
    But, in any event, it concerns me greatly that there is not 
enough training going into these frontline individuals for what 
is a very high-risk area in terms of the responsibilities that 
they have to undertake, that is, agricultural inspection.
    Mr. Bonner. Can I just make two quick points, very quickly?
    One is, the CBP officer with both the basic training and 
the import classroom training, it is contemplated, will have 90 
hours of training in the agricultural protection mission. That 
is number one.
    Number two, there will be a number of Agriculture 
Specialists that will be equal to the number of current AQI 
inspectors, that will be trained--there may be a somewhat 
longer training--it will be essentially the same training that 
they currently get through the U.S. department of Agriculture 
at the national center over in Maryland.
    So you will have that corps, and then you will have CBP 
officers who do have significant training in the agriculture 
protection mission, so we will be able to perform that function 
more effectively.
    At over half of the ports of entry, there are not any 
Agriculture inspectors. I hate to tell you this: There are no 
AQI inspectors at over half of the ports of entry in the United 
States. So we want a CBP officer in addition to the Ag 
Specialists that are going to be better able to protect our 
country against agriculture. I think we will be more effective, 
not less effective.
    Mr. Camp. Mr. Cardin may inquire.
    Mr. Cardin. No questions.
    Mr. Camp. Thank you.
    Ms. Dunn may inquire.
    Ms. Dunn. Thank you very much, Mr. Chairman.
    And welcome, Commissioner. I see that you were sworn in on 
the 24th of September, so I congratulate you on your strength 
of character to hang in there, knowing that your job would 
change a whole lot as a result of 9/11.
    I wanted to ask you a couple of questions. First of all, 
how have your responsibilities shifted since 9/11? And are you 
well enough funded to be able, for example, to continue to pick 
up the legacy responsibilities of the drug smuggling and other 
things that were more of a focus before 9/11?
    Mr. Bonner. Well, first of all, the responsibility--
September 24th of 2001, I was sworn in as Commissioner of 
Customs, and the responsibilities changed dramatically with 9/
11. Literally, we had to refocus U.S. Customs on the 
antiterrorism/homeland security mission.
    When you think about it, Customs--of course, with 
Immigration--is the frontline at our borders in terms of 
protecting our country; and Agriculture inspectors, 
specifically with respect to agriculture diseases and pests. 
And so certainly my whole responsibility turned dramatically 
because it was clear to me from--and it was clear to me, 
listening to the President, that I needed to refocus U.S. 
Customs immediately and promptly on the antiterrorism, or what 
we now would call the Homeland Security mission; and that is 
what we have been doing, literally, since I hit the ground in 
September of 2001.
    Now, this does not mean, by the way, we drop all of the 
traditional mission. We also have had to balance that. And we 
have to balance that as we become Customs and Border Protection 
with even more traditional missions which go from everything--
interdicting illegal drugs and protecting our country in that 
sense to making sure that people that are illegally entering 
our country are apprehended, that if they are not admissible 
that those determinations are made.
    From a budget point of view, this is the first year 
actually--fiscal year 2004 that I will actually have a budget 
for the entire Customs and Border Protection. For the last half 
of 2003, part of that budget was someplace else which made 
things difficult. But I think we have basically--without 
getting into a lot of fine details, I do think that we have a 
good budget that has been submitted by the President and 
enacted by the Congress for fiscal year 2004, and I am 
confident that we can do the mission.
    Now, there may be some missions and initiatives as we go 
forward that may be necessary, and I will bring those up as 
appropriate to this subcommittee, to our Appropriations 
subcommittee.
    Ms. Dunn. Good. I am glad.
    We will also be interested in being helpful to you as you 
carry out what was required before 9/11 and what we are very 
interested in having you focus on, the Department of Homeland 
Security responsibilities.
    I am from the State of Washington and many of my 
constituents are those of neighboring districts, up north, who 
move daily across the border into Canada. And I am interested 
in how the NEXUS program is working, whether it is serving my 
constituents and other Washington State constituents well.
    Ms. Dunn. What can I tell them about this program, as you 
initiate it, and the future of this program?
    Mr. Bonner. NEXUS is working better in the State of 
Washington than in any other place. We have over 35,000 people, 
both U.S. and Canadian citizens who are enrolled in the 
program, who provide information so their backgrounds could be 
checked through criminal and terrorist indices in both Canada 
and the United States, and who have submitted to a personal 
interview by, usually, a U.S. customs and Border Protection 
official and with the Canadians, and have been--we have made a 
determination that they do not pose a risk to the terrorist or 
even drug smugglers. And then they are enrolled in the program.
    It is a model in the sense that I think you know at the 
Peace Arch, which is part of the Blaine port of entry, and this 
is one of the important things. We actually have a dedicated, 
not just a NEXUS booth, but a lane that you can get into, so it 
is truly a fast lane into the United States; and that has 
helped us with enrollment. Overall, this is important because 
the more people that we can get vetted, that we know are 
trusted, that we do not have to look at every time they come to 
the border entry point.
    By the way, it may still be a random check once in a while, 
but we can concentrate more of our efforts on people we do not 
know anything about, or people who are Ahmed Ressams, who was, 
as you know, an individual who was arrested and apprehended by 
a U.S. customs inspector in early 2000, who was an Al-Qaeda 
terrorist. So that is what we want to focus our effort on, and 
these programs, like NEXUS, help us do that.
    Ms. Dunn. Thank you for that answer.
    There was a woman at U.S. Customs, a very alert woman; the 
Canadians tried to take credit for that snatch, by the way.
    Mr. Bonner. They had nothing to do with it. It was Diana 
Dean.
    Ms. Dunn. Good for you.
    We have now got that on the record, finally, and we did 
have a wonderful report of that by one of your Customs agents 
in Seattle when we were there for our visit a couple of weeks 
ago.
    Let me ask you about something that my other committee, 
Ways and Means, discussed because we, at least until now, 
oversaw the Customs department; and in our discussion as to 
what should go into the Department of Homeland Security, we 
talked about whether we should separate out the revenue-raising 
portions of Customs, the duty portions, for example, from the 
rest of the responsibilities.
    Do you have any impression on whether that would be a good 
idea or a bad idea to do, as you move into--under Homeland 
Security?
    Mr. Bonner. I think that would be a serious mistake. There 
are all sorts of connections and interconnections between, 
let's say, the inspectors at the ports of entry and the trade 
regulation and compliance function, as well as the trade 
facilitation function. U.S. Customs, now Customs and Border 
Protection, collected about $23, $24 billion last year in 
revenue.
    Most of that, 90 percent or thereabouts, are import duties 
and the other 10 percent are fees of some sort that we are 
collecting. So it is very sizable, and it is very much 
interrelated; and I actually appreciated the fact that when the 
Homeland Security legislation was enacted, it did permit 
essentially for most of U.S. Customs to remain intact and our 
management system intact, so that we could add pieces from 
other agencies that had significant border responsibilities, 
like the Immigration inspector program from the former INS that 
was abolished on March 1, the Agriculture AQI inspection 
program at our borders, and the entire Border Patrol, and by 
doing that, we now--we do have one agency for the border.
    But the trade functions and even the revenue functions are 
interrelated with what Customs and Border Protection does, and 
so I think it would be a mistake to split them all out. And I 
am glad, by the way, that Chairman Thomas and the Ways and 
Means Committee permitted the statute to be constructed in a 
way where we could build a border--one agency for our border, 
and that is what we have done under the Department of Homeland 
Security.
    Ms. Dunn. Thank you very much.
    Mr. Camp. Thank you.
    Mr. Markey, you may inquire.
    Mr. Markey. Thank you, Mr. Chairman, very much.
    This hearing room is a particularly fitting venue for 
today, given the debate on the Iraq war supplemental going on 
on the House floor and this committee, the work of this 
committee. The mural on the back wall reminds us of the battle 
that is still being waged in Iraq and Afghanistan and the 
courage of our men and women in the Armed Forces whose valor 
and determination keep our Nation secure.
    The photo behind us of soldiers marching down a city street 
reminds us that we need protection here on our Nation's Main 
Street, as well, to safeguard the homeland from those who try 
to perpetrate terrorist acts against Americans inside our 
country.
    My question for Mr. Bonner today relates to the efforts 
that Customs is making to ensure that our homeland is secure. 
On September 12, I wrote to Secretary Ridge to express my 
concern about a shipment of depleted uranium that ABC News was 
able to transport undetected from Jakarta to the Port of Los 
Angeles. I have not yet received a response from the Department 
and would like to take this opportunity to ask you to address 
some of the questions I raised in my correspondence.
    Media reports indicate that upon arrival at the Port of Los 
Angeles on August 23, the shipment of depleted uranium from 
Jakarta was screened by U.S. Customs inspectors. They did not 
detect anything dangerous or suspicious inside the trunk using 
radiation pagers and X-ray scanners, so they did not open the 
crate. As you know, while depleted uranium is a harmless 
substance, its chemical signature is similar to highly enriched 
radium, which can be used to make radiological dirty bombs or a 
nuclear explosive device that might be used against America.
    My first question: Have you investigated how this shipment 
was able to pass from Jakarta to Los Angeles without raising 
the suspicions of Customs inspectors? And I will have follow-up 
questions after that.
    Mr. Bonner. Okay. First of all, it did raise the suspicions 
of Customs inspectors. We had--through our automated targeting 
system, we identified this container as potentially being a 
container that posed a potential risk, based upon various 
factors that go into our automated targeting system, and so it 
was identified as a container that would get a security 
screening.
    Mr. Markey. So why wasn't the crate opened if it was 
identified as a suspicious crate?
    Mr. Bonner. Well, it was identified as posing a potential 
risk, based upon a number of factors about the container. It 
was given, and all containers that are identified as a 
potential risk get, a minimum security inspection, which 
includes running the container through a large-scale X-ray-type 
machine, and running it also for potential radiation admission. 
That was done with it. It was determined by the way that there 
was nothing dangerous in the container that posed a threat and 
in fact--in truth, in fact, there was nothing dangerous.
    Mr. Markey. I am saying--.
    Mr. Bonner. Just a minute, Mr. Markey.
    There was nothing in the container that posed a threat.
    Mr. Markey. No, I know that, but I am saying since the 
radiation signature is very similar to highly enriched uranium, 
did they determine that there was uranium in the container?
    Mr. Bonner. Well, first of all, it was depleted uranium.
    Mr. Markey. Did they determine that there was uranium in 
the container?
    Mr. Bonner. Well, you said ``or a radiation signature 
similar to highly enriched uranium''; and by the way, I take 
issue with that. It does not--the depleted uranium is depleted 
of most of its radiation source, so it is a very low-emitting 
substance. It actually emits about as much radiation as a pile 
of dirt, so it is not emitting a radiation signature that is 
very easy to pick up, as opposed to highly enriched uranium, 
which would emit--if it is not heavily lead-shielded, would 
emit a radiation signature.
    Mr. Markey. Was the evidence that you had previous 
something that told you there could be uranium in that crate? 
You said that it had been identified. Was the information you 
had that there could be uranium?
    Mr. Bonner. No. No. The information we had was based upon 
an analysis of advance information that we get under the 24-
hour rule, which I described earlier in my testimony, which 
gives us information about a container. We then run it against 
a large database we have with respect to importers, shippers, 
and other factors, including intelligence information; and we 
determined--by the way, when we say it is a potential risk 
container, that just means we haven't been able to rule that 
container out as a risk.
    Mr. Markey. I appreciate that. So you are saying you didn't 
identify it as something which could potentially have uranium 
in it?
    Mr. Bonner. No, we thought it could potentially--have 
potentially some sort of terrorist weapon, which could be 
anything from a manpad to a nuclear device to the materials 
that could make a nuclear device to just, potentially, ordinary 
explosive material.
    Mr. Markey. So you do not have a system to open those 
crates that you believe pose a significantly higher risk?
    Mr. Bonner. No. We do have a system, and the system is, if 
there is something about the container, it is either emitting 
radiation, or based upon the X-ray screening, there is an 
anomaly, there is something that doesn't look right in terms of 
what is advertised to be in the container, then we do a full 
physical inspection of the container.
    That was not the case with respect to the small amount of 
depleted uranium, which was about the size of a Coke can that 
was shipped by ABC News as a supposed test. I do not think it 
was a valid test with respect to the capabilities of detecting, 
let's say, a terrorist weapon.
    Mr. Markey. Okay, so the Natural Resources Defense Council 
says that without opening the crate, there is no way to tell 
the difference between HEU, highly enriched uranium, and 
depleted uranium without looking inside.
    Do you disagree with that?
    Mr. Bonner. I think highly enriched uranium which is not 
lead-shielded emits significantly more gamma rays than depleted 
uranium, so it is easier to read with a radiation detection 
device from a greater distance. That is what I believe.
    Mr. Markey. And do you have detection devices which would 
pick up lower enriched uranium, or did that just go through?
    Mr. Bonner. We are looking for highly enriched uranium that 
you could make into a nuclear device--which, by the way, there 
is a certain quantity that you would need that would displace a 
certain amount of space; and if you are going to prevent it 
from emitting, you have to have some significant lead shielding 
of the material. And I think if you did all of those things, I 
have a great deal of confidence that that kind of anomaly would 
have been detected by the X-ray scan that was done in that 
container.
    If you are talking about a Coke can full of depleted 
uranium, no, that is not necessarily going to be detectable, 
but it does not pose any risk being--it is not a terrorist 
weapon, it cannot be made into a terrorist weapon. And 
frankly--.
    Mr. Markey. No, I did know that. That is obvious.
    Mr. Bonner. Yeah.
    Mr. Markey. The question is, does it emit a radiation 
signature, chemical signature that is something that should be 
suspicious to you?
    You disagree that it does not emit a chemical signature 
which is something that should be suspicious to you? You 
disagree with that; is that right?
    Mr. Bonner. I am actually disagreeing with you on the level 
of emission.
    Mr. Markey. That is what I am saying.
    Mr. Bonner. Okay.
    Mr. Markey. Are you saying you do not agree that it emits a 
signature which should cause any concern for any inspector? Is 
that what you are saying?
    Mr. Bonner. No. I am saying it emits an extremely low level 
of radiation.
    Mr. Markey. No. I am asking you.
    Mr. Bonner. And is a sensitive device to pick up that 
radiation.
    Mr. Markey. But is it something that should be suspicious 
and, as a result, looked at?
    You are saying no?
    Mr. Bonner. Well, if it is depleted uranium, no. Depleted 
uranium is used for a lot of purposes.
    Mr. Markey. Stop, please.
    You don't know it is depleted uranium until you open the 
crate. You have to first decide that the level of radiation 
which is picked up, the chemical signature, is significant 
enough to open the crate.
    You are saying that this would not emit a chemical 
signature significant enough to open the crate?
    Mr. Camp. I will give the Commissioner time to answer the 
question. The time has expired.
    Mr. Bonner. I am not disputing you on the signature. I am 
disputing you on the level of the emission that could be read 
and on what distance it could be read.
    We would almost have to go into a classified hearing if we 
want to get into specific details on this.
    Mr. Markey. All right.
    Mr. Camp. Ms. Granger may inquire.
    Ms. Granger. Thank you.
    Very simple questions, and I apologize because I came in 
late.
    You said there would be 200, 300 graduating each month, and 
I believe you said it started in January. Did I say that right?
    Mr. Bonner. That is right.
    Ms. Granger. What is your total number of CBP officers?
    Mr. Bonner. Well, you know, eventually--first of all, that 
is a hard question to answer because it says, what is the right 
number of inspectional officers that we need.
    But let's say we have 18,000 inspectional officers, right 
now--.
    Ms. Granger. All right.
    Mr. Bonner. --so I would think at a minimum that given the 
terrorist threat and given the traditional missions that we are 
going to need ultimately, a number of CBP officers that is 
equivalent to that.
    Now, maybe--I do not want to box myself in here--a year or 
two from now I may think we may need to increase that in 
certain places, and I cannot do it through reallocation, but 
generally speaking, over time, you would end up with having the 
number of CBP officers that is equivalent to the total number 
of inspectional officers that are at least legacy Customs and 
legacy Immigration. That is, by the way, about 16,000 to 
17,000.
    Ms. Granger. And so do you have a time frame to say, this 
is when we expect to have that done?
    Mr. Bonner. Well, first of all, there would be new CBP 
officers that are being trained; and they are actually 
starting--we have actually started the training--and they would 
graduate in January, as I indicated. And there will be some 
graduating classes; it will be around 300 a month, depending on 
what our hiring needs are. But at the same time, in March of 
next year, the plan would be to convert the legacy Immigration 
and Customs inspectors to CBP officers and to provide, both 
before and after that, some additional cross-training and 
refresher training of the legacy work force, if you will, 
inspectional work force. But at that point essentially all of 
the inspectional work force, except for the Agriculture 
Specialist, would be CBP officers.
    Ms. Granger. Okay, and one other question: What will that 
consolidation do in terms of the overall number of personnel at 
ports of entry?
    Mr. Bonner. Well, it will not affect it at all per se, by 
the way, without prejudice to my right to decide that we need 
more inspectors at a particular one port of entry and perhaps a 
few less at another.
    But this has nothing whatsoever to do--we would have 
essentially, and as a generalization, the same number of 
inspectors at, let's say, the San Ysidro port of entry or 
Detroit or Pembina, North Dakota, or JFK Airport, L.A. seaport 
or Seattle Seaport. You would have the same general number of 
inspectors that you have, now.
    What you have, though, is you have inspectors that have a 
greater level of training and knowledge, both, as to the 
homeland security/antiterrorism mission and to the general, 
important, traditional missions that the agency as a whole must 
perform.
    I hope that--.
    Ms. Granger. Yes.
    Thank you.
    Mr. Camp. Thank you.
    Ms. Jackson-Lee may inquire.
    Mr. Bonner. We will be adding about 2,000, from 2002 to 
2004, we are adding about 2,000, a little over 2,000 inspectors 
to the work force, based upon where we were in fiscal year 
2002.
    Ms. Jackson-Lee. I thank the chairman very much, and the 
ranking member.
    This is a very important hearing and, Commissioner, I am 
gratified for your presence here. I always would hope or always 
would intend for Congress to be problem solvers, and certainly 
your agency was created to solve our biggest problem or to be 
part of the solution to our biggest problem that we are facing 
in the 21st century, and that is of terrorists and terrorist 
activities and horrific acts against the States.
    So I apologize. There are two conflicting, or at least in 
terms of my time, Immigration Subcommittee hearings that are 
going on, in the Judiciary and this one; and you may have said 
this already. But I would like to know specifically on this 
question of fewer overall hours of training--in fact, I just 
came through the international segment of my airport, Houston 
Intercontinental; and I will put in a local plug and say, we 
want you down there. I am going to personally invite you, 
because we have had a continuing problem in backlogs with the 
number of inspectors.
    It is not their fault, if you will, but it is a tough job 
with a high volume, and we have not been able to solve that; so 
let me extend a direct invitation. I think we had that 
invitation in before, and we have not been able to work out the 
schedule, so I hope we will be able to do that.
    But the idea of fewer hours of training. Tell me what your 
vision is for this merged combination of Customs, Immigration 
and Agricultural inspectors. What is the best result of what 
you expect to have happen?
    Mr. Bonner. Well, first of all, I do not believe there will 
be overall fewer hours of training. I believe there will be 
more hours of training with the approach we are taking.
    Ms. Jackson-Lee. And tell me how so?
    Mr. Bonner. Well, how so in two ways. First of all, the 
basic CBP inspectional officer training will be 3 months, so I 
mean, it is longer significantly than--and that is 6 days a 
week, by the way, so it is significantly longer than the 
current legacy Customs inspector training.
    But there is a lot of overlap in the Customs and 
Immigration training courses, so--we eliminated that, so I 
think the training is going to be at basic--the basic 
inspectional training is going to be in terms of hours; I think 
it will be roughly equivalent to what it has been separately 
now for the legacy Customs and Immigration basic training 
academies.
    Now--but in addition to that, we are going to post-in-port 
classroom training when a CBP inspectional officer moves out to 
a port of entry. There were going to be additional training 
requirements and hours of training with respect to the mission, 
which doesn't exist right now, by and large. There is on-the-
job training and there is occasional, sporadic classroom 
training. But this will be a structured in-port classroom 
training program which is going to be, also, a significant 
number of hours, so at the end of the day, I fully expect that 
CBP officers are going to be more highly trained than they 
currently are.
    Ms. Jackson-Lee. Can I stop you?
    Are they going to have the inherent knowledge where they 
can address technical or out-of-the-box situations in this 
combination? What is your vision for getting them gelling 
together, working with at least a common understanding of the 
procedures, the technical procedures, so that we have an 
effective response to what we are trying to do, which I imagine 
is maximizing personnel to get the most efficient operating 
system that we can?
    Mr. Bonner. Efficient and effective, but one of the things 
to gel together is, of course, to put all of the inspectional 
officers into one uniform, which we have done, and that will be 
phased in over the next 8 or 9 months.
    Another thing, though, is in terms of how do they get the 
specialized knowledge that they are to going to need to perform 
their function? Well, there is basic inspectional training. You 
know, a new trainee has to be trained. They go from a GS-5 or 
GS-7 to a GS-11, so there is a period of time with any new 
trainee, where you need to provide on-the-job training, and as 
I say, additional in-port classroom training modules.
    And then, thirdly, in terms of the inherited sort of 
expertise, we have 18,000 CBP Customs and Border Protection 
inspectors that have a tremendous amount of expertise in the 
Immigration area, the Customs area, and the Agriculture 
protection mission area.
    And lastly let me just say about more efficient, because I 
know we have been--we discussed the Houston airport and the 
wait times at the airport; and one of the key reasons for those 
wait times has been the lack of what were INS or Immigration 
inspector staffing at the primary booth. And so as you train, 
by the way, new people to perform multiple functions, you can 
have greater flexibility so that you can literally staff all of 
the primary inspection booths with a CBP inspectional officer, 
where we had not been able to do that in the past, so it makes 
us more efficient too in performing missions.
    Ms. Jackson-Lee. Let me just conclude.
    My time, Mr. Chairman--I would just like to conclude by 
saying the topic in the Judiciary Committee is the issue of 
these overstays. Now, that is after the fact, but one of the 
problems that I see is that we need to refine and expedite the 
distinction between perceived troublemakers, because we have 
already defined them as troublemakers--and I use that term not 
lightly because it has offended many of our friends and allies 
from certain regions--and get a preapproval process that helps 
move that process along in terms of people.
    The other thing that I would like to raise in this 
committee and raise with you as I conclude is that we need to 
also deal on a southern border with the whole question of 
smuggling, which I hope that maybe this merged group may have 
some sensitivities to that.
    I have a CASE Act, and I hope I will get a hearing in this 
committee dealing with going at the nerve of smuggling so that 
we sort of move that criminal aspect away, so that this merged 
group can deal with the overall commerce and tourism that comes 
about, that we should not be undermining in light of the fact 
that we are all trying to fight terror; and I hope that I can 
engage you in this issue and engage the chairman.
    It is called the CASE Act. We have worked the FBI, Treasury 
Department, law enforcement on incentives to getting informants 
penalty enhancements, and an outreach program to educate people 
about the travesty and tragedy of smuggling human cargo; and I 
hope we will be able to present that to this committee.
    I thank you very much.
    Mr. Bonner. Yes. Happy to discuss that with you.
    Ms. Jackson-Lee. Thank you.
    Mr. Camp. Thank you. And this concludes the questioning for 
the Commissioner.
    Again, I want to thank you for being here and all that your 
doing and your time today.
    Ms. Sanchez. Mr. Chairman?
    Mr. Chairman, may I just add something?
    Mr. Camp. Yes.
    Ms. Sanchez. I am very concerned that this whole issue is 
about the agriculture, again, because my State's main industry, 
believe it or not, is agriculture.
    Mr. Bonner. Well, it is in my State, too, Ms. Sanchez, by 
the way.
    Ms. Sanchez. I would really look forward to maybe getting a 
personal briefing from your department, just to ensure that we 
are getting our questions asked with respect to that particular 
piece of the program.
    Mr. Bonner. We will be happy to do that. We will make sure 
that that happens.
    Mr. Camp. Thank you. Thank you very much.
    The second panel may come forward. We will have Mr. Tom 
Keefe, President of the National Treasury Employees Union, 
Local 137; Mr. Tom Kuhn, President of the American Federation 
of Government Employees Union, Local 2580; and Mr. Bill Pauli, 
President of the California Farm Bureau Federation.
    Mr. Camp. Mr. Keefe, why don't we begin with you? We have 
your written testimony, and I would ask that you briefly 
summarize your statement in 5 minutes. There will be another 
hearing, that is scheduled for this room, so we do need to be 
done by 3:30.
    So, Mr. Keefe, why don't you begin?

 STATEMENT OF TOM KEEFE, PRESIDET, NATIONAL TREASURY EMPLOYEES 
                        UNION LOCAL 137

    Mr. Keefe. Thank you.
    Chairman Camp, Ranking member Sanchez, distinguished 
members of the subcommittee, I would like to thank the 
subcommittee for the opportunity to testify on the Bureau of 
Customs and Border Protection's One Face at the Border 
initiative.
    I am a second generation Customs inspector, proudly 
following in the footsteps of my father, who was a Customs 
inspector until his death in 1982. My law enforcement career 
spans 22 years.
    In 1982, I started as a deputy sheriff and was a police 
officer for 2 years. In 1984, I accepted a position as an INS 
inspector, in Champlain, New York. To qualify for this 
position, I was required to attend and successfully complete 20 
weeks of Immigration officer basic training class at the 
Federal Law Enforcement Training Center in Glynco, Georgia.
    In 1989, I transferred to accept a position with the U.S. 
Customs Service. I again was required to attend and 
successfully complete a 9-week basic Customs inspector class at 
FLETC.
    In addition to my INS and Customs training at the Federal 
Law Enforcement Training Center, I have recently had the 
opportunity to be a part of the DHS Human Resources Design 
Team. The Homeland Security Act of 2002 authorized the 
Secretary of Homeland Security and the Director of OPM to 
develop new resources--human resources systems for Federal 
employees in the Department of Homeland Security in the areas 
of pay, performance, management, job classification, 
disciplinary matters, and labor-management relations.
    As an employee representative from NTEU, the National 
Treasury Employees Union, I was proud to serve on the DHS Human 
Resources Design Team field group. From the extensive field 
hearings and meetings of our design team, we developed 52 human 
resources options that will eventually be sent to Secretary 
Ridge and OPM Director James. I believe this collaborative 
agency-employee process that was used for the DHS design team 
worked very well, and I would suggest that a similar process 
might be useful as the agency looks at challenges of 
reorganizing its border inspections function.
    As the subcommittee is aware, on September 2, 2003, 
Secretary Tom Ridge announced the creation of the new CBP 
officer position and the One Face at the Border initiative.
    Under this plan, a new position, the Customs and Border 
Protection officer, would combine the duties of legacy 
inspectors from Customs, INS, and APHIS into a single frontline 
border security position at the 307 official ports of entry 
across the United States.
    I and the legacy Customs employees that I work with believe 
that combining the border protection responsibilities that were 
held by three highly skilled specialists into one ``super 
inspector'' raises some serious concerns. By utilizing one 
employee to perform all three primary and secondary inspection 
functions, will this agency lose the expertise that has made 
the United States border inspection personnel second to none?
    I would note that a specialist position will be established 
within APHIS, and no specialist position will be created for 
legacy Customs or INS inspectors. I truly hope that the lack of 
a specialist position will not lead to the lack of specialists 
in many critical Customs and INS functions performed at the 
border. After 20 years as an inspector for both legacy Customs 
and legacy INS, and as a participant of the DHS design team, I 
believe we have a unique perspective to bring to this committee 
as relates to this new Department of Homeland Security and its 
implementation of the One Face at the Border initiative.
    Prior to the creation of the CBP officers, legacy Customs 
officers receive 9 to 10 weeks of intensive training on the 
Customs Service rules and regulations alone. Under the new CBP 
officer training guidelines, legacy inspectors such as myself 
will be transitioning into the new position in the spring of 
2004 by way of classroom training, CD-ROM, computer training 
and on-the-job training.
    While the new training will lead to a broader knowledge of 
the INS, Customs and APHIS rules and regulations of entry for 
passengers and those entering the United States, there is a 
concern as to whether it will provide the specialized expertise 
necessary to ensure the successful accomplishment of the 
critical missions of the Department of Homeland Security.
    Another aspect of the One Face at the Border initiative 
that needs to be more scrutinized, and is lacking in detail, is 
with regard to secondary inspections processed at ports of 
entry. Currently, legacy Customs and INS inspectors and APHIS 
inspectors are cross-trained as to the most basic Customs and 
INS procedures for entry into the United States, for passengers 
and goods.
    However, if a legacy Customs inspector, for example, is 
faced with a complicated visa situation, they have the ability 
to send the passenger to a more intensive, secondary inspection 
where an experienced legacy INS inspector can make the 
determination as to the validity, say, of a particular visa. It 
is unclear whether experts in visa issues or other Customs and 
INS border protection matters will continue to be available for 
secondary inspection.
    I feel strongly that the specific expertise must be 
maintained. Stationed at the 307 ports of entry across the 
United States, legacy Customs inspectors, such as myself, K-9 
enforcement officers and in-port specialists make up our 
Nation's front line of defense in the wars on terrorism and 
drugs, as well as facilitation of lawful trade into the United 
States.
    In addition, legacy Customs personnel are responsible for 
ensuring compliance with over 400 in-port laws and regulations 
for over 40 agencies, as well as stemming the flow of illegal 
contraband, such as child pornography, illegal arms, weapons of 
mass destruction, and laundered money.
    Both the American public and the trade community expect our 
borders to be properly defended with as little interference to 
legitimate trade as possible. In order to do that, we must 
maintain the expertise of legacy Customs Service personnel who 
have successfully performed these functions in the past.
    Again, I want to thank the subcommittee for the opportunity 
to share my thoughts on this very important issue concerning 
the CBP's One Face at the Border initiative, and I would be 
happy to answer any questions that you may have.
    Mr. Camp. Thank you, Mr. Keefe.
    [The statement of Mr. Keefe follows:]

                   Prepared Statement of Thomas Keefe

    Chairman Camp, Ranking Member Sanchez, distinguished members of the 
Subcommittee; I would like to thank the subcommittee for the 
opportunity to testify on the Bureau of Customs and Border Protection's 
(CBP) ``One Face at the Border'' initiative.
    I am a second-generation Customs inspector, proudly following in 
the footsteps of my father, who was a Customs inspector until his death 
in 1982. My law enforcement career spans 22 years. In 1982, I started 
as a deputy sheriff and was a police officer for two years. In 1984, I 
accepted a position as an INS inspector in Champlain, New York. To 
qualify for this position, I was required to attend and successfully 
complete 20 weeks of the Immigration Officer Basic Class (IOBTC) at the 
Federal Law Enforcement Officer Training Center (FLETC) in Glynco, 
Georgia. In 1989, I transferred to accept a position as a Customs 
inspector. I again was required to attend and successfully complete a 
9-week basic Customs inspector class at FLETC. In addition, over the 
course of my Customs career I have also attended specialized training 
for the Contraband Enforcement School in 1991 and Senior Inspector 
training when I was promoted to Senior Customs Inspector in 1996 both 
at FLETC.
    In addition to my INS and Customs training at FLETC, I have also 
recently had the opportunity to be a part of the DHS Human Resources 
Design Team. The Homeland Security Act of 2002 authorized the Secretary 
of Homeland Security and the Director of OPM to develop new human 
resources (HR) systems for federal employees in the Department of 
Homeland Security in the areas of pay, performance management, job 
classification, disciplinary matters, and labor-management relations. 
As part of the creation of the new DHS HR system, a design team 
composed of DHS managers and employees, HR experts from DHS and OPM, 
and representatives from the agency's three largest unions, including 
NTEU, was assembled to develop a wide range of options for 
consideration by Secretary Ridge and OPM Director James.
    As an employee representative from NTEU, I was proud to have served 
on the DHS Human Resources Design Team Field group. The Design team 
held a number of field hearings, town hall meetings and focus group 
meetings around the country. From the extensive field hearings and 
meeting our design team developed 52 human resource options that have 
been forwarded to a Senior Review Advisory Committee who will 
eventually send final HR options to Secretary Tom Ridge and OPM 
Director Kay Coles James. I believe the collaborative agency/employee 
process that was used for the DHS Design team worked very well and I 
would like to suggest that a similar process might be useful as the 
agency looks at the challenges of reorganizing it border inspection 
functions.
    As the subcommittee is aware, on September 2, 2003, Secretary Tom 
Ridge announced the creation of a new CBP officer position and the 
``One Face at the Border'' initiative. Under this plan, a new position, 
Customs and Border Patrol Officer (CBPO) would combine the duties of 
legacy inspectors from Customs, INS and APHIS into a single front-line 
border security position at the 307 official ports-of-entry across the 
United States.
    I and the legacy Customs employees I work with believe that 
combining the border protection responsibilities that were held by 
three highly-skilled specialists into a ``super inspector'' raises some 
serious concerns. Each of the job responsibilities from the three 
legacy inspection agencies is highly specialized and distinct. By 
utilizing one employee to perform all three primary and secondary 
inspection functions, will the agency lose the expertise that has made 
the United States border inspection personnel second to none?
    I would note that a ``specialist'' position will be established 
within APHIS, but no ``specialist'' positions will be created for 
legacy Customs or INS inspectors. I truly hope that the lack of a 
``specialist'' position will not lead to a lack of specialists in the 
many critical Customs and INS functions performed at the border.

    CBP OFFICER TRAINING:
    After 20 years as an inspector for both legacy Customs and INS and 
as a participant in the DHS Design Team, I believe that I have a unique 
perspective to bring to the committee as it relates to new Department 
of Homeland Security and its implementation of the ``One Face at the 
Border'' initiative. Prior to the creation of the CBP officer position, 
legacy Customs inspectors received 12 weeks of intensive basic training 
on Customs Service rules and regulations alone. Under the new CBP 
officer training guidelines legacy inspectors, such as myself, will be 
transitioning into the new positions in the spring of 2004 by way of 
classroom training, CD-ROM computer teaching and on-the-job training. 
The new training will lead to a broader knowledge of the INS, Customs 
and APHIS rules and regulations of entry for passengers and goods 
entering the United States but there is a concern as to whether it will 
provide the specialized expertise necessary to ensure the successful 
accomplishment of the critical missions of the Department of Homeland 
Security.
    Another aspect of the ``One Face at the Border'' initiative that 
needs more thorough scrutiny is the lack of details as in pertains to 
the secondary inspection process at ports of entry. Currently, legacy 
Customs and INS inspectors are ``cross-trained'' as to the most basic 
Customs and INS procedures for entry into the U.S. for passengers and 
goods. However, if a legacy Customs inspector is faced with a 
complicated visa entry situation at an airport or land border primary 
inspection station they have the ability to send the passenger to a 
more intensive secondary inspection station where an experienced legacy 
INS inspector can make a determination as to the validity of a 
particular visa. It is unclear whether experts in visa issues or other 
specific Customs and INS border protection matters will continue to be 
available for secondary inspection. I feel strongly that specific 
expertise must be maintained.
    Stationed at 307 ports-of-entry across the United States, legacy 
Customs inspectors, such as myself, canine enforcement officers, and 
import specialists make up our nation's first line of defense in the 
wars on terrorism and drugs as well as the facilitation of lawful trade 
into the United States. In addition, legacy Customs personnel are 
responsible for ensuring compliance with over 400 import laws and 
regulations for over 40 federal agencies, as well as stemming the flow 
of illegal contraband such as child pornography, illegal arms, weapons 
of mass destruction and laundered money.
    As a current legacy Customs inspector I would like to briefly 
discuss what the traditional missions of Customs include as well as our 
newly added homeland security missions such as the Customs Trade 
Partnership Against Terrorism (C-TPAT), the Container Security 
Initiative (CSI) and the 24-Hour Rule that requires advanced 
transmission of accurate cargo manifest information to the CBP. Legacy 
Customs employees are involved in both the trade facilitation/
enforcement and law enforcement missions of the Customs Service, 
requiring a truly unique set of job skills.

    Customs Border Security Mission:
    In 2002, legacy Customs employees seized over 1.9 million pounds of 
cocaine, heroin, marijuana and other illegal narcotics--including over 
10 million tablets of Ecstasy, triple the amount seized in 1999. 
Customs also processed over 500 million travelers last year, including 
over 1 million cars and trucks and ships and these numbers continue to 
grow annually. Legacy Customs personnel's border security missions 
include examining hundreds of thousands of cargo containers every year 
at our nation's airports, seaports and land borders for contraband as 
well as weapons of mass destruction. Legacy Customs personnel interdict 
more drugs, inspect more cargo and process more vehicles than any other 
agency within the federal government.

    Customs Trade Mission:
    Legacy Customs inspectors, import specialists, and canine 
enforcement officers work closely together to enforce trade and anti-
smuggling laws. When an inspector makes an illegal cash seizure at a 
border crossing, the case is given to an agent for a follow-up 
investigation to determine where the illegal funds came from and where 
they were going. The interaction between the law enforcement and trade 
facilitation missions of the Customs Service is also necessary to the 
discovery of counterfeit goods and intellectual property piracy, as 
well as terrorist activity.
    Customs relies on the expertise of its trade enforcement personnel 
to recognize anomalies as they review the processing of commercial 
transaction information associated with the admissibility and entry of 
imported goods. This process assists law enforcement in developing 
targeting criteria as well as targeting suspect shipments and starting 
investigations. In addition, the legacy Customs Service collects over 
$20 billion in revenue on over 25 million entries involving over $1.3 
trillion in international trade every year, providing the federal 
government with its second largest source of revenue. Last year, the 
Customs Service deposited over $22.1 billion into the U.S. Treasury.
    Both the American public and the trade community expect the borders 
to be properly defended with as little interference with legitimate 
trade as possible, while at the same time being able to efficiently and 
safely facilitate trade across that border. In order to do that, we 
must maintain the expertise of legacy Customs Service personnel who 
have successfully performed these functions in the past.
    Again, I want to thank the subcommittee for the opportunity to 
share my thoughts on the very important issues concerning the CBP's 
``One Face at the Border'' initiative. I would be happy to answer any 
questions.

    Mr. Camp. And now we will hear from Mr. Kuhn.

     STATEMENT OF TOM KUHN, PRESIDENT LOCAL 2580, NATIONAL 
 IMMIGRATION AND NATURALIZATION SERVICES COUNCIL (AFGE/AFL-CIO)

    Mr. Kuhn. Mr. Chairman, members of the committee, my name 
Thomas Kuhn. I am President of Local 2580 of the INS Council, 
and I would like to take the opportunity to thank the members 
for allowing me to present my views on the CBP officer.
    My career began in 1973 as an inspector at Kennedy Airport. 
The training I received at Kennedy allowed me to develop the 
tools that I needed for the rest of my career. My next 19 
years, I worked on land border, and in 1997 I was promoted to 
special operations inspector and transferred to preclearance 
operations in Canada. I have also served as an acting 
supervisor and instructor and intelligence officer, and I 
currently work in quality control.
    Immigration inspectors graduate after 20 weeks of basic 
training, and it takes 3 to 5 years before they are competent 
to work secondary without a senior officer. Customs and 
Immigration inspectors currently staff land border inspection 
points. That works in view of the fact that no one other than 
U.S. citizens, Canadians or Mexicans with border crossing cards 
are handled along the primary line. Everyone is referred to 
Immigration secondary, where documents are checked, people are 
interviewed, and determinations are made as to the type of 
visa. There are over 55 nonimmigrant visas in subcategories, 
all with different requirements and durations. Immigration 
inspectors at airports process all passengers with visas on the 
primary line. Only passengers suspected of malfeasance are 
referred to secondary and escorted there.
    It takes at least a year before an inspector is proficient 
at the primary line alone. When a new inspector starts working, 
he makes many unnecessary referrals to secondary, due to the 
fact there are numerous different passports, visas, green 
cards, all with different security features. Many innocent 
people are referred to secondary and they have long waits, miss 
connecting flights and they are tremendously inconvenienced. 
The airlines suffer a loss of revenue, the new officers are 
also easily fooled by high quality false documents and 
convincing liars.
    I am an American and I am a New Yorker. I watched the World 
Trade Center being built and I watched it come down, thanks to 
media coverage, so I am fully aware of the need to stop 
terrorists. But if we drive the airlines out of business or we 
make it so difficult to enter the United States that the 
tourists stay home, the tourists have won anyway--the 
terrorists have won anyway.
    On the other hand, in a world where terrorists destroy 100-
story buildings and kill thousands of people, the border is no 
place to put someone's idea of efficiency over national 
security. I can tell you that with one position our Nation will 
not be safer. If the management of Customs and Border 
Protection, which has limited immigration experience, plans to 
make CBP officers jacks of all trades, they will be masters of 
none and it will be a grave disservice to the security of the 
country.
    If, on the other hand, they plan on developing quality 
primary officers from the new CBP officers and they develop new 
CBP paths to specialize in Customs, the concept could work.
    We must continue to have Customs and Immigration 
specialists. Customs inspectors do a great job of examining 
cargo, searching baggage for contraband and weapons of mass 
destruction. Conversely, Immigration inspectors are experts at 
interviewing people and examining documents. CBP officers will 
never be as good as Customs and Immigration inspectors are 
today. The terrorists depend on expert counterfeiters for 
documents, the drug cartels are always developing new, 
sophisticated methods of smuggling, and WMDs are a whole new 
ball game.
    The United States must have experts at the borders to stop 
all violators. This is a war, and just as in a war we wouldn't 
have F-15 pilots fly Apache helicopters, no one asked Customs 
and Immigration inspectors to do each other's job.
    Let us do what we are trained to do. I have in this bag, 
this very large bag, volumes of immigration law, which every 
inspector has to be competent in before he can successfully do 
his job. We also have 30 volumes of BIA decisions, directives 
and numerous other volumes which we need to know.
    I don't know what Customs does, other than the basics. I 
know how to--we have to look for drugs, we look for contraband, 
we look for duty--things that were dutiable and we refer them 
to Customs.
    Conversely, they do the same things to us.
    Finally, Mr. Chairman, I want to submit for the record a 
letter which I wrote in June of 2000, at the request of former 
national council President Chuck. He appeared before a 
congressional committee, and I bring to your attention the 
closing paragraph:
    ``In closing, I can only hope that the Members of Congress 
will answer the wakeup call of the two terrorists caught and 
not wait to have another Pearl Harbor or Oklahoma City on their 
watch. If Congress doesn't act, the only people that will be 
surprised by a new terrorist attack will be the innocent 
victims who depend on the government to protect them.''
    The law enforcement community is aware of the problem and 
knows that the only people who can help prevent another 
disaster are the Members of Congress, the only ones who are 
able to increase staffing for the level necessary to protect 
our country.
    In closing, I would just like to say, just as lawyers are 
specialized in various fields of law, we must have specialized 
CBP officers. They enforce the laws passed by Congress to 
protect our citizens and as law enforcement officers they 
deserve the enforcement pay and retirement. Most importantly, 
we deserve to give the country the security it needs. The 
security of the United States is the most important thing. We 
cannot accept nor tolerate mediocrity.
    Thank you, and I will answer any questions you have.
    Mr. Camp. Thank you.
    [The statement of Mr. Kuhn follows:]

                   Prepared Statement of Thomas Kuhn

    Mr. Chairman, Ranking Member Turner, Members of the Committee:
    My name is Thomas Kuhn. I am President of Local 2580 of the 
National Immigration and Naturalization Services Council (AFGE). I 
would like to take this opportunity to thank the members of the 
Committee for allowing me to present my views on the proposed Customs 
and Border Protection Officer (CBP) position.
    I will first provide you with a basic overview of my background and 
experience. I began my career in 1973 with the Immigration & 
Naturalization Service at Kennedy Airport. The training and experience 
I received in the five years at Kennedy allowed me to develop the 
primary, secondary, and investigative tools required for me to 
competently perform my duties for the rest of my career. For the next 
19 years duty assignments were land border inspection stations
    In 1997 I was promoted to Special Operations Inspector and was 
transferred to Preclearance Operations in Canada.
    In addition to my inspection duties I also served as an instructor, 
intelligence officer, adjudicator, and currently I am the quality 
control officer for legacy Immigration at Montreal. As a special 
operations inspector I have always received excellent or above ratings 
and have received a number of awards and letters of commendation.
    It is due to my education, training and experience that I am now 
able to provide an informed recommendation about the newly proposed 
Customs and Border Protection Officer. This new position as I 
understand it is designed to replace the Immigration, Customs and 
Agriculture Inspector with one person with 15 weeks of training, and 
OJT for 6 months. Mr. Chairman, having given the issue a great deal of 
thought, I do not believe that such a consolidation will work nor do I 
feel the country will be safer for it
    My training and education is a continual process in which a new 
situation or question about the Immigration status of an individual 
traveler brings about moment-by-moment developments.
    The complexities that the Immigration Inspector encounters on a 
daily basis are endless. There is no situation which is as simple as it 
first seems. What should take several minutes to determine ? if an 
individual is an American Citizen--can at times become an involved 
investigatory process that can take hours or even days.
    Congress has rewritten the immigration law three times in my career 
and each and every time the repercussion at the front lines caused 
untold delays and loss of man-hours. As an example a person born 
outside the US in 1932 may not derive citizenship from a mother married 
to a non-US citizen father. Yet if they were born with the same 
circumstances in 1960 they would be citizens. And there are countless 
other equally confusing examples of immigration law we must interpret.
    When an immigration inspector graduates after 22 weeks of basic 
inspector training it takes 3 to 5 years before they are competent to 
work secondary without a senior officer with them.
    US Customs and Immigration Inspectors currently staff land border 
primary points. This works there due to the fact that no one other than 
US citizens, Canadians, or Mexicans with a border crossing card, are 
processed on the primary point of inspection. If a customs inspector 
encounters anyone other than the above listed individuals, the traveler 
is referred to immigration secondary where the arriving person?s 
documents are checked, he or she is interviewed and a determination is 
made as to the type of visa required. There are over 55 non-immigrant 
visas and sub categories all with different requirements and duration 
of stay.
    Immigration Inspectors at international airports process all 
passengers with visas on the primary line. Passengers suspected of 
malfeasance are immediately escorted to secondary.
    It takes at least one year before a new inspector is proficient at 
primary alone.
    When an inspector starts working he makes many unnecessary 
referrals to secondary due to the fact that there are numerous 
different issues of passports, visas, green cards etc all with 
different security features. In many cases these innocent people have 
long waits and often miss connecting flights causing tremendous 
inconvenience and lost revenue to the airlines. The new officer is also 
easily fooled by high quality false documents and convincing liars.
    I am an American, a New Yorker. I watched the World Trade Center 
being built from my office when I worked on Wall Street. I watched them 
come apart thanks to media coverage. So I am fully aware of the need to 
stop terrorists. But if we drive the airlines out of business, or make 
it so difficult to enter the US that the tourists stay home, then the 
terrorists have won anyway.
    On the other hand, in a world where terrorists destroy 100 story 
buildings and kill thousands of people, the border is no place to put a 
bureaucrat's idea of efficiency over our national security. And while 
this proposal may appear more `efficient' I can tell you here and now 
our nation will not be safer for it.
    If the management of Customs and Border Protection, which has 
limited immigration experience, plans on making CBP officers ``Jacks of 
all trades'' they will be ``Masters of none'' and it will be a grave 
disservice to the security of the country.
    If on the other hand they plan on developing quality primary 
officers from the new CBP officers and then develop new CBP career 
paths to specialize in immigration or customs the concept could work.
    We must continue to have Customs and Immigration specialists. 
Customs inspectors do a great job of examining cargo, searching 
vessels, and baggage for contraband and WMDs. If I work until I retire 
in six or seven years I will not be anywhere near as good as they are 
today. Conversely Immigration Inspectors are experts in interviewing 
people and examining documents. CBP officers will never be as 
proficient as good Immigration Inspectors are today.
    The terrorists and criminals depend on expert counterfeiters for 
documents. The drug cartels are always developing new and more 
sophisticated methods of smuggling drugs, and WMDs are a whole new 
ballgame. The United States must have experts at the borders prepared 
to stop all kinds of violators.
    This is a war and just as in war we would not ask F-15 pilots to 
fly Apache helicopters or B-52 pilots to fly stealth fighters. Don?t 
ask Customs and Immigration inspectors to do each other?s job. Let us 
do what we are trained to do.
    1n 1988 when there was a proposal for the INS to take over all land 
border responsibilities there was a local survey done in the Champlain, 
NY area. At that time Customs manned 2/3 of the primary lanes of 
traffic yet immigration inspectors made more that 2/3 of the referrals 
that resulted in refusals of admission. It?s not that immigration 
inspectors were smarter; it is that they were experts in immigration.
    If you have doubts about the complexity and details of immigration 
law that are required to be understood by Immigration Inspectors, let 
me dispel it right now. On the desk in front of me are the volumes of 
Immigration Law, Bureau of Immigration Appeals decisions and the 
directives that an immigration inspector must be aware of to be 
competent at his or her job. I do not believe it is possible for one 
person to effectively perform this job and take on the responsibilities 
of both customs and agricultural inspectors.
    I have very little idea what customs inspectors have to know to be 
fully able to do their job even though I am a cross-designated customs 
inspector and have been for 20 years. I know the basics, find drugs, 
what a tourist can bring back from abroad or what a visitor can bring 
into the US. I have even made Customs seizures when I worked alone at 
small northern ports but as to the rest of their job I have no idea. I 
know they enforce laws for 36 different agencies, I know they enforce 
marking regulations and copyright and trademark laws. They also collect 
duties. Other than that I know very little after 20 years of working 
side by side with customs.
    Finally Mr. Chairman, I want to submit with my testimony a 
letterwhich I wrote in June of 2000 at the request of former National 
INS Council President Chuck Murphy. It concerns the issue of inadequate 
staffing levels at U.S. ports of entry, a problem which continues to 
this day. He submitted it to a Congressional committee when he appeared 
before it. I would like to call your attention to one particular 
paragraph in that letter:
    ``In closing I can only hope that the members of Congress will 
answer the wake up call of the two terrorists caught and not wait until 
we have another Pearl Harbor, or Oklahoma City on their watch. If 
Congress does not act, theonly people surprised by a terrorist attack 
will be the innocent victims whodepended on the government to protect 
them. The law enforcementcommunity is aware of the problem and knows 
that the only people who canhelp prevent a disaster are the members of 
Congress. They are the only oneswho can increase the staffing to levels 
necessary to protect our country''
    In my view, the issue that needs to be addressed by DHS and 
Congress is not the consolidation of existing positions at the border, 
but the inability to attract and retain competent workers for the 
existing positions. Low pay compared with other law enforcement 
occupations, the fear of losing job protections and continuing morale 
problems contribute to the high turnover rate among legacy immigration 
inspectors. The failure to recognize customs and immigration inspectors 
as law enforcement officers for purposes of retirement coverage is, and 
will continue to be, a major reason for leaving.
    Our nation needs a well trained, highly motivated work force in 
order to protect our borders from the threat of terrorism. The current 
division of responsibilities works well and allows us to pursue that 
goal aggressively. The CBP officer will not function as effectively and 
will not keep our nation safer from terrorists. These jobs are too 
important. We cannot tolerate mediocrity. Thank you.

    Mr. Camp. Mr. Pauli, you have 5 minutes to summarize your 
testimony.

  STATEMENT OF BILL PAULI, PRESIDENT, CALIFORNIA FARM BUREAU 
                           FEDERATION

    Mr. Pauli. Thank you, Mr. Chairman, Ms. Sanchez and Mr. 
Goodlatte. It is a pleasure to be here this afternoon.
    I am a farmer from California. I am President of the 
California Farm Bureau.
    Mr. Camp. Mr. Pauli, could you pull the microphone in front 
of you?
    Thank you.
    Mr. Pauli. Thank you.
    It is a pleasure to be here. I look forward to making the 
following comments.
    I have personally visited border crossings, airports, and 
seaports. I have seen why there is a need to streamline 
inspection protocols, as this initiative does, but it is 
critical that it be done with utmost attention to the Animal 
and Plant Health Inspection Service, APHIS, with their mission 
of protecting plant and animal health to ensure a safe and 
reliable food supply for the American consumer.
    Therefore, in my testimony today I would like to first 
thank the Bush administration for its diligence in protecting 
our homeland; secondly, raise awareness for the agricultural 
role of the new department; and third, express concerns with 
the new streamlining concept.
    Farm Bureau has worked closely with the Department of 
Agriculture on homeland security issues and appreciates the 
leadership of Secretary Veneman and Deputy Secretary Moseley.
    The creation of the Homeland Security Council at USDA has 
assisted in protecting our borders, our food supply, our 
research and laboratory facilities and technology resources 
from any intentional acts of terrorism. The quick and decisive 
actions taken at USDA assured consumers that measures were in 
place to protect the U.S. food supply from attack.
    Californians, unfortunately, know how devastating either an 
intentional or accidental introduction of foreign animal 
diseases or exotic pests can be to our food supply. USDA and 
the California Department of Food and Agriculture have spent in 
excess of $200 million to control outbreaks of Exotic Newcastle 
Disease, bovine tuberculosis and the Mexican Fruit Fly, all of 
which come from outside our borders. Prevention is certainly 
less costly than control and eradication.
    In light of these recent pest disease outbreaks and a 
projected $2 billion increase in U.S. agriculture imports this 
year, we must strengthen security procedures for product 
inspection, test control, eradication, and emergency 
management.
    Farm Bureau has supported increased resources to USDA's 
APHIS to improve surveillance measures and accountability at 
U.S. ports of entry, to prevent the introduction of foreign 
plants and animal pests and diseases.
    It is imperative, and I repeat, it is imperative that these 
resources, including personnel training and quality control, 
not be diminished under the proposed One Face at the Border 
initiative, as proposed by the Department of Homeland Security. 
The training of the new Customs and Border Protection officers 
is the critical issue. It has become readily apparent to me, 
since we issued our initial comments this morning from various 
sources, that the issue about training is unclear.
    Training is the heart of the issue and whether it is 16 
days, as initially outlined by DHS, or whether it is 90 hours, 
as they say it is now, the real question here is the amount of 
training, the type of training, the type of officers, and their 
background, so that they have adequate knowledge in order to 
understand the issues that we have faced for years and years in 
APHIS.
    Training is the key. When APHIS border functions were 
transferred to the new Department of Homeland Security, we were 
given assurance that the integrity of these programs would 
remain intact.
    However, having One Face at the Border administering 
Customs, Immigration and Agriculture programs could be a 
daunting task. After all, the functions of ag inspectors alone 
is very, very complex, ranging from cargo and containers 
carrying potentially harmful insects to travelers carrying mud 
from a foot and mouth disease-infected livestock operation.
    While we appreciate the Commissioner's outreach to 
agricultural stakeholders, we urge further dialogue between 
DHS, the USDA, and the industry on the initiative, on the 
further defining of DHS's responsibilities relating to food 
safety and safe trade. Many questions remain--many, many 
questions--such as, what about the collaborative efforts at the 
various State-level departments of agriculture and how that 
will be carried out?
    Agriculture and consumers must be assured that food safety 
will remain a priority under this department. To that end, Farm 
Bureau and all of agriculture advocate the importance of 
trained agricultural specialists at our Nation's points of 
entry and strongly emphasize the need to ensure sufficient 
staff resources for the new Customs and Border Protection 
officers.
    We commend this committee for holding this hearing. We look 
forward to working with you, USDA and the Department of 
Homeland Security to safeguard the U.S. food supply for both 
intentional and unintentional accidents which will affect not 
only production agriculture across the country, but will be to 
the detriment of the U.S. consumer.
    Thank you, Mr. Chairman, and I look forward to any 
questions that you and the other members might have.
    [The statement of Mr. Pauli follows:]

                    Prepared Statement of Bill Pauli

    Good afternoon, Mr. Chairman, members of the Committee. My name is 
Bill Pauli. I am President of the California Farm Bureau Federation and 
a member of the American Farm Bureau Federation Board of Directors. I 
produce wine grapes and Bartlett pears in Mendocino County. Thank you 
for the opportunity to present testimony on the ``One Face at the 
Border'' concept proposed by the Department of Homeland Security (DHS).
    Having personally visited border crossings and seaports, I have 
seen why there is a need to streamline inspection protocol as this 
initiative does, but it is critical that it be done with the utmost 
attention to the Animal and Plant Health Inspection Service (APHIS) 
mission of protecting plant and animal health to ensure a safe food 
supply.
    Therefore, in my testimony today, I would like to first, thank the 
Bush administration for its diligence in protecting our homeland, 
secondly, raise awareness for the agricultural role of the new 
department, and third, express concern with the new streamlining 
concept.
    Farm Bureau has worked closely with the Department of Agriculture 
on homeland security issues and appreciates the leadership of Secretary 
Veneman and Deputy Secretary Moseley. The creation of the Homeland 
Security Council at USDA has assisted in protecting our borders, food 
supply, research and laboratory facilities and technology resources 
from any intentional acts of terrorism. The quick and decisive actions 
taken at USDA assured consumers that measures were in place to protect 
the U.S. food supply from attack.
    Californians, unfortunately, know how devastating either an 
intentional or accidental introduction of a foreign animal disease or 
exotic pest can be to the food supply. USDA and the California 
Department of Food and Agriculture have spent in excess of $200 million 
to control outbreaks of Exotic Newcastle Disease, bovine tuberculosis 
and the Mexican Fruit Fly--all of which came from outside our borders. 
Prevention is certainly less costly than control and eradication.
    In light of these recent pest/disease outbreaks and a projected $2 
billion increase in U.S. agriculture imports this year, we must 
strengthen security procedures for product inspections, pest control, 
eradication, and emergency management.
    Farm Bureau has supported increasing resources to USDA's Animal and 
Plant Health Inspection Service to improve surveillance measures and 
accountability at U.S. points of entry to prevent the introduction of 
foreign plant and animal pests and diseases. It is imperative that 
these resources, including personnel, training and quality control not 
be diminished under the proposed ``One Face at the Border'' initiative 
by the Department of Homeland Security.
    The training for the new Customs and Border Protection officers 
would have to be extensive to know when a passenger, piece of luggage 
or cargo container needs further inspection by agricultural 
specialists.Sec.  The traditional APHIS border inspectors were trained 
intensively for eight weeks under Veterinary Services and the Plant 
Protection and Quarantine Service. Many had an advanced degree in an 
agriculture related field, were highly trained in animal and plant 
disease identification and understood their movement. Under the initial 
system proposed by DHS, the new Customs and Border Protection officers 
would receive only 16 hours of training regarding agriculture. If DHS 
expects to ensure effective protocols with minimal training via 
secondary inspectors, how will the department meet the timing needs of 
perishable commodities and live animals?
    When APHIS border functions were transferred to the new Department 
of Homeland Security, we were given assurances that the integrity of 
the programs would remain intact. However, having ``one face at the 
border'' administering customs, immigration and agriculture programs 
could be a daunting task. After all, the function of ag inspectors 
alone is very complex, ranging from cargo containers carrying 
potentially harmful insects to a traveler carrying mud from a Foot and 
Mouth Disease infected livestock operation.
    While we appreciate Commissioner Bonner's outreach to agricultural 
stakeholders, we urge further dialogue between DHS, USDA and industry 
on this initiative and the further defining of DHS responsibilities 
relating to food safety and safe trade. Questions remain, such as, will 
DHS continue collaborative efforts with state-level departments of 
agriculture?
    Agriculture and consumers must be assured that food safety will 
remain a priority under the department. To that end, Farm Bureau 
advocates the importance of trained agriculture specialists at our 
nation's points of entry and strongly emphasizes the need to ensure 
sufficient staff resources for the new Customs and Border Protection 
officers.
    We commend this committee for holding this hearing and we look 
forward to working with you, USDA and the Department of Homeland 
Security to safeguard the U.S. food supply from both intentional and 
accidental threats. Thank you.

    Mr. Camp. Thank you for your testimony. And thank you all 
for your testimony. I have a couple of questions for both Mr. 
Keefe and Mr. Kuhn.
    Tell me, what is your reaction to all of the added 
resources in personnel that have been put on the border since 
September 11? We had some pretty dramatic testimony about the 
increases in resources and programs. Do you have any comment on 
those?
    Mr. Keefe. Well, Mr. Chairman, thank God. Thank God and 
finally it happened.
    I remember giving a brief discussion to the Northern Border 
Coalition, a group of Congressmen that are interested in the 
northern border, and I remember talking once--you know, I 
always hear a lot about after September 11, we have done this. 
Well, let me tell you something. A lot of the men and women I 
work with were doing it before September 11.
    And I used to sit on certain committees for the union to 
negotiate things for the agency, and I would talk about 
terrorism and preventing terrorist attacks and I would be 
laughed at, but guess what?
    Nobody is laughing anymore, and you know, we commend and we 
are very grateful for the infusion of resources. It allows us 
now to finally do our job. And I guess it is kind of--it is a 
double-edged sword because it is also very frustrating, because 
now we are doing our job, and like the gentleman from 
California said, it is very daunting to look at this; whereas, 
the resources given us--and I don't want to throw the baby out 
with the bathwater here.
    Some of this idea is good, some of this merging is good, 
but the specialty has to remain; and it is now very daunting 
for the men and women that I work with, almost paralyzing, to 
think that we have to do all these functions.
    Mr. Camp. Okay.
    Mr. Kuhn, any?
    Mr. Kuhn. I would agree that it is a good concept.
    The extra manpower on the northern border has been a 
tremendous help. I spent 19 years on the northern border, many 
times working alone on our checkpoint, and there is not a whole 
lot you can do when you are alone.
    There are vehicles that come down that you would like to 
really look at, but you don't back up 25 minutes away, so now 
that we have two officers in a lot of these places, it gives 
these officers a real feeling of protection for themselves.
    Also, the knowledge that we are getting and some of the 
tools we are getting is great. They are upgrading our computer 
systems. Right now, if I want to run a full check on somebody, 
I have to go in and out approximately nine different databases, 
all with different passwords, and you know how frustrating and 
complicated that gets. So it is a good idea, the improvements 
are good, but as Mr. Keefe said, we have to maintain a certain 
amount of expertise in the various fields.
    Mr. Camp. Well, I certainly appreciate those comments and 
what you and the members of your organizations are doing at the 
border to protect and serve the United States and the people 
who live here.
    Tell me, it seems to me, in those smaller units, this 
integration is actually a good thing because they are doing 
everything anyway; and it seems to me, in the larger areas, 
larger points of entry, that you are naturally going to have 
some sort of specialization. And maybe I am misunderstanding, 
but I didn't see anything that necessarily would prevent 
further specialization in a unified agency. I mean, already the 
Commissioner testified that there would be, for example, a K-9 
unit with special training; and clearly there is the 
Agriculture inspector that is going to be a specialist.
    Is there something I don't know or is there something 
preventing those who may have a particular expertise or the way 
this will develop? In terms of One Face at the Border, the 
functions will still have to occur. Is there something 
preventing a specialization on behalf of an employee if they 
want to go deeper into something?
    Mr. Keefe. If I may, I agree with you, and I have heard 
Commissioner Bonner speak on several occasions, and he seems to 
be inching towards specialization, although not explicitly 
saying so.
    I think there would be a greater comfort level if he 
explicitly said, for example, we are going to have secondary 
legacy Customs people, secondary INS people that are proficient 
and trained to do this--I think that would be a positive step 
in selling this program--and a secondary APHIS inspector. 
Because, as the gentleman said, APHIS, we are all different, 
but APHIS is a very scientific background. And I can tell you, 
in maybe even 20 years, while I may be able to have some 
similar skill sets as my partner Mr. Kuhn, I am not 
scientifically inclined--I don't have that vocation; and it is 
very specific. So I think there is nothing prohibiting it, but 
there is nothing that says it completely.
    And if I may, Mr. Chairman, I would also like to comment on 
what the full chairman said. I don't want to come across and I 
know the people I represent don't want to come across; as we 
have been doing this for 20 years, we don't want to change. As 
Mr. Kuhn said, we welcome the change, but we think it should be 
done in a constructive, positive way with employees who do the 
job having some feedback; and up until this point, sir, we have 
had none of that.
    Mr. Camp. Okay. I appreciate your comments.
    Ms. Sanchez may inquire.
    Mr. Kuhn. Sir?
    Mr. Camp. I am sorry. I didn't mean to cut you off.
    Mr. Kuhn. I have a lot of airport experience that Mr. Keefe 
doesn't have, and it is going to be a real problem at airports, 
at the unified primary. At a land border, when a person comes 
in who is not Mexican, Canadian or U.S., he is immediately 
referred over to secondary where Immigration takes care of him.
    When you come into an airport, everybody's done on primary, 
and we issue I-94s, we determine whether the person is valid, 
we give them the time frame they have. We have to question them 
on what their intent is, are they coming for business, are they 
a tourist, et cetera. Customs doesn't do any of that now, so 
all of those 10,000 Customs inspectors will have to be brought 
up to speed on that.
    I have 30 years, and we still get into discussions on the 
basic category of B-1 because it is getting so blurred with 
international business. Is this gentleman a visitor for 
business or does he need a different visa, a treaty trader or 
an in-company transferee, or a work permit; and it is going to 
be a real problem at the airports.
    Mr. Camp. Okay. Thank you.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    I guess I am having a little bit of difficulty trying to 
really understand how this works, this integrated one person 
who is the primary, but that doesn't necessarily mean that 
under the new system, there will be a secondary person--that is 
actually more trained or more specialized is pretty much what I 
really gathered from Mr. Bonner's testimony earlier and some of 
the reading that I did. Is that correct?
    Is that the understanding, Mr. Chairman, or the 
understanding that you all have as to how this is going to 
work. Or does anybody really know?
    Mr. Kuhn. Well, what I have been told at town meetings is, 
we are going to start rotating.
    Ms. Sanchez. So you could end up being the secondary guy or 
the primary guy.
    Mr. Kuhn. And I could wind up being the Customs secondary 
guy.
    Do you have anything to declare? Yes. See the Customs 
inspector.
    Ms. Sanchez. Right. Right.
    Do you have any comment to that, Mr. Keefe?
    I mean, I am trying to understand because what I am getting 
is that any of you will be placed in a place, so you could be a 
primary guy or you could be a secondary guy and if you are 
placed in a secondary position, you may not know the full stack 
of books that you have in front of you and all the other 
directives and court decisions that we have going on.
    Mr. Keefe. Exactly. You have got it, ma'am, with one 
exception.
    He is correct when he says I have very little airport 
experience. The only airport experience I had was coming down 
here today. I don't work in an airport, and it is a different 
world. We have had--as the Commissioner of Customs said, it is 
called one-step inspection at the border, whereas Customs and 
Immigration inspectors perform inspections of--primary 
inspections on the border. I do it. It is one face. It has been 
that way for 20 years. I don't need a high level of expertise 
to do the primary screening. The skill sets are the same; the 
questioning is the same.
    Where it gets tricky is where you go into a matter that is 
a little more detailed. And one of the things I said to 
Commissioner Bonner at a town meeting in Buffalo is, physicians 
have similar skill sets, doctors have similar skill sets, a 
podiatrist and a cardiologist. When I get chest pains, I don't 
want to go to a podiatrist. There is a reason for 
specialization.
    On the land border, if I have got a question on a primary 
issue, I send it to secondary. It is almost a safety net. It is 
a critical thing. It is a different world, though. You just 
have to know the airports and land borders and, for that 
matter, seaports. They are all different environments.
    Ms. Sanchez. If--I am trying to also understand if we have 
new people coming into the system and now are trained overall 
as just a new Border Patrol--whatever the name of this is, the 
new uniform guy, Oh, it is a new uniform--I don't know that it 
is necessarily a good thing.
    That is what I am trying to figure out.
    How comfortable do the people who have already been doing 
this for a long time feel as far as putting aside the, what 
we--well, this is the way we have done it in Border or this is 
the way we have done it in Customs or this is the way we have 
done it in INS for a while.
    How are they feeling about going through the new training? 
Are they getting new training? Are they getting the same 71-
hour training course?
    What do your colleagues--what kind of training do you think 
you are going to get? Do you feel comfortable with that if you 
are going from ``I have always done INS'' and looked at what 
the backgrounds of people are, and now I have got to go and do 
cargo; and I guess the same answer back from cargo to the 
people. Because some people feel very comfortable doing cargo 
and checking things, but they may not feel good about 
questioning people about status, ``Are you really supposed to 
be here in this country?''
    Not that he would be more lenient, but they might be, 
because confrontation over ``Are you supposed to be here?'' is 
a lot different confrontation from ``You have got to leave that 
pair of scissors there'' or ``We have got to take this away'' 
or ``You have got to pay an additional $30 because you didn't 
declare this.''
    It is a different kind of confrontation.
    Ms. Sanchez. I guess I am trying to feel how are the 
current employees feeling about all these changes going on?
    Mr. Kuhn. As far as the training goes we had one videotape 
put out so far on primary, and I reviewed it and there were 
four major errors on the training video. I was asked by my 
point director to review it before we put it out.
    And with regard to how do the employees feel, we do the 
same job, we need the same skill sets, but things are--with Mr. 
Keefe's job, it is you find it or you don't find it. It is 
physical, it is objective.
    With integration we train more with the subjective. Your 
answers come from interrogating the people, questioning the 
people and trying to find out what a person's true intent is, 
and one of the major problems is going to be when the 
supervisors switch over. They are going to get a customs 
supervisor, a hundred hours of training on integration, and 
then I am going to have to try and convince him one way or the 
other that, A, we should exclude this guy or, B, we should let 
this guy go. And I believe I could snow it as supervisor if I 
wanted to, and I believe there are some supervisors who no 
matter what I said their mind would be made up even if they 
were wrong. And it is going to be a problem.
    Mr. Keefe. There is an incredible level where I work of 
frustration and almost demoralization, and it is kind of ironic 
considering as the chairman said, you know, how do we feel 
about the staff. They feel very good about the staffing and the 
recognition for the job we have done, and yet they almost feel 
like their job is being kind of dumbed down, because they have 
worked very diligently and have been very proficient and very 
talented and have intercepted a lot of things, both of our--all 
three of our legacy agencies.
    As far as the new people, we don't know yet. They are just 
starting to go with this training. So I am sure they will come 
back, and they don't have anything to gauge it by. But most of 
the journey people inspectors are very resentful, and again it 
is not because they are resistant to the change. They are 
resistant to the way the change was thrust upon them without 
their input.
    Ms. Sanchez. Thank you. And I guess I have one last 
question for Mr. Pauli, and this, again, trying to understand, 
because I didn't get to question the Commissioner as much as I 
had hoped, and I will submit some questions for the record. But 
you have studied this a lot more than I have and probably 
almost any member on this committee because it is directly 
going to effect you as a farmer and our Nation's agriculture.
    Do you feel comfortable that in fact when there is 
something coming across the border or when there is a person 
coming through the airport or when there is a port person that 
we are actually going to have a secondary agriculture person 
there or there is going to be somebody that is trained up for 
that more so under this system than what we currently have, Mr. 
Pauli?
    Mr. Pauli. Well, I hope it is apparent from my testimony 
that we have real concerns about how this is going to really 
work. We have questions about the training and the adequacy of 
the training. We think there is potential holes, but we are 
trying to keep an open mind, recognizing that clearly the 
system is changing, but we are not completely comfortable at 
this point by any means.
    There again, on one hand the Department seems to be open 
and trying to meet with us and talk with us about what they are 
doing and why, and yet they don't seem to have all of the 
answers yet. It is evolving, and that is why we are here today 
to express our concern that we don't know some of the pieces. 
We hope those will come together, but as the other two 
gentlemen have stated, these are complex issues, and when you 
get to the APHIS issues, they too are very, very complex. They 
involve the type of personnel that have a background, desire to 
be in these kinds of areas, these kinds of issues. They have a 
background in agriculture. They understand these diseases and 
these pests. They know where they come from. They know where to 
look for them. And we are not convinced at this point that we 
may or may not get there.
    Ms. Sanchez. And lastly, how much time do you think you 
have spent trying to understand this and doing meetings and 
talking--trying to talk to some of the Department officials?
    Mr. Pauli. Well, it is hard to quantify the amount of time, 
but, I mean, there again--.
    Ms. Sanchez. 10 hours, 50 hours?
    Mr. Pauli. This has been an issue for over a year for us as 
it has been coming forward, but APHIS has always been a concern 
for us particularly in California and on the border states 
because of the complex issues we face and the outbreaks of 
various diseases and pests. There is not an easy answer to 
detect or prevent these pests.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Mr. Camp. Thank you. The chairman of the full committee is 
back if you would like to inquire.
    Mr. Cox. I would like to thank the witnesses both for your 
prepared testimony and for what you do every day when you are 
not here. Mr. Pauli, congratulations to you on being appointed 
to Governor Schwarzenegger's transition team. I hope that that 
is a worthwhile experience. And Mr. Keefe--is it Kuhn? Mr. 
Keefe and Mr. Kuhn, thank you very much for what you do at the 
border and for the testimony that you provided to us.
    I want to--first of all, I just want to express my support 
for the concerns that have been raised about getting ag right. 
I am a strong supporter of trying to consolidate our border 
functions, but at the same time I think we have got to do it 
right and particularly when it comes to ag we want to make sure 
that--because that is science as compared to law, if you will. 
It is not just a combination of two separate legal disciplines. 
It is--we are now pitting humanities into sciences, and so we 
need to make sure that we get this right. And I know the 
chairman of the Agriculture Committee wants to get it right. I 
know the Secretary wants to get it right, and so I think that 
the concerns that you have raised with us are very valid ones, 
and we want to continue our oversight and make sure this does 
get done right.
    Mr. Keefe and Mr. Kuhn have raised slightly different 
issues than the APHIS issue, but I wonder if I could get the 
benefit of, unless I am, Mr. Chairman, covering ground that has 
already been covered at this hearing, get your take on the 
APHIS aspects, because your testimony I think is very good 
about the challenges that we face trying to combine customs and 
immigration. But I would like to hear a little bit more about 
your thoughts on the APHIS aspects, if you feel comfortable.
    Mr. Keefe. Mr. Chairman, I did say a little bit about it 
before you came in, and I think you hit it right on the head. I 
mean, it is an almost an apples and oranges thing. It is a law 
enforcement mindset from the people that I have worked in 
within APHIS to a scientific approach to a job.
    Again, you know, on the primary--our worlds are a little 
different. I work at the land border. Mr. Kuhn works at an 
airport. On the land border I am able to ask some routine 
questions and do some routine examinations, and I feel a fairly 
strong comfort level with the primary function performing APHIS 
inquiries.
    However, if you got into anything beyond that--and we are 
not talking a lot of detail--I think that is where it gets very 
problematic, because, again, it requires some level of 
scientific study that I just don't have the benefit in my 
education experience.
    Mr. Cox. Mr. Kuhn, do you want to add to that?
    Mr. Kuhn. Basically APHIS is just something that 
immigration inspectors are aware of. We basically ask a few 
basic questions, and we say, see the agriculture officer. I 
don't have any scientific background that would lend itself to 
becoming proficient, you know. I know what an orange is, an 
apple is. I could probably tell if there was a bug crawling on 
one of them, but other than that I don't have a whole lot of 
experience in it.
    Mr. Cox. Mr. Kuhn, I wonder if I could ask you about an 
area--the area where you are most experienced, and that is 
looking at documents that people bring with them as they try to 
cross the border. We have had hearings recently in this 
committee focused on fraudulent documents and their prevalence 
and also not just fake documents but valid government-issued 
documents that are fraudulently obtained.
    The latter is of particular concern. The State of Maryland 
right now is considering loosening its requirements for 
issuance of a driver's license. Virginia since 9/11 went the 
other way because the 9/11 terrorists sought out Virginia given 
the laxity of the issuance of their IDs. California just had a 
contest about this in the context of our gubernatorial 
recollection, but, you know, very plainly even before the 
legislature changed the law in California, there were big 
problems at the DMV because the General Accounting Office went 
in and easily obtained fraudulently issued licenses based on 
the most obvious forgeries.
    What can we do given that while we may fix one of these 
problems in one State or another State, there is this seeming 
proliferation of government-issued IDs that aren't any good? 
What can we do to make sure that as you are looking at people 
coming across the border, A, you don't have to keep in your 
mind 147 different documents and what they are supposed to look 
like and, B, protect you from the problem that just because it 
is government-issued it might not be real. It might have the 
guy's picture on it. It might be from the real state of the 
union, but it is just not legit. What can we do to address this 
problem?
    Mr. Kuhn. Short of a U.S. citizen ID card which would be 
issued by the Federal Government, it is an absolute nightmare. 
Almost every county in the United States issues a different 
type of birth certificate. It is no big problem to go to a 
cemetery and see someone, you know, of your age who died at a 
very young age. You get a birth certificate for that child. You 
go get a driver's license, and you have the world. You have a 
U.S. passport, which only gets a cursory examination in most 
countries of the world. It is an absolute--you would have to 
cross-reference all the birth certificates and death 
certificates in the country to make sure that somebody can't 
get a birth certificate for a dead person. You should probably 
link all of the driver's license bureaus together.
    Mr. Cox. And incidentally, we discovered in our hearings 
that that is already done for commercial driver's licenses, 
just not for everybody else.
    Mr. Kuhn. Right. There was an issue made a short time ago 
about some--I guess it was GAO inspectors that came through the 
northern border and they presented counterfeit driver's 
licenses, and it made press headlines that they got into the 
country. We don't examine driver's licenses. A U.S. citizen 
doesn't have to present anything. I talk to the person. If the 
person is a U.S. citizen, I let them go. If I don't think he is 
a U.S. citizen, then I really worry about documents.
    So in the case of these guys coming through a land border 
with a false driver's license, it is not a shock to us. We 
don't check those documents. At airports we do, but at land 
borders you don't.
    Mr. Cox. Well, it is interesting. Our colleague Eleanor 
Holmes Norton, who is one of the moving forces in making sure 
we had this hearing on document fraud, described herself, and I 
think fairly, as a civil libertarian, and she is coming more 
and more to the view that we have got to have some sort of 
biometric identifier as a matter of civil rights and civil 
liberties, because right now what we are doing at the border is 
you are sizing somebody up and deciding whether they are a 
citizen. And obviously that kind of subjective approach is 
going to work less well for people who look like they are from 
some other country, and that is exactly what people from 
various national ethic groups don't like about the way 
government enforces the law.
    Do you see any down--now, the purpose of a biometric of 
course, whether it be a thumbprint or a hand print or a retina 
or iris or facial, whatever you pick, the purpose of all of 
this is to connect the document with the person and also to 
make it much more difficult for people to generate fraudulently 
obtained government documents in the first place.
    Do you see resistance to biometrics in the workforce, or do 
you see support for biometrics in the workforce, or do you just 
have a whole host of opinions on it?
    Mr. Kuhn. We welcome it. Anything that will aid us in 
keeping out the people we need to keep out, we welcome. I don't 
know of an immigration officer who wouldn't love to see a U.S. 
ID card with a biometric in it. It is just something we really 
need.
    Mr. Cox. Mr. Chairman, as you know, our statute, the 
Homeland Security Act, expressly forbids national identity 
card, and I don't think we should go revisit that portion of 
the statute, but I do think it is incumbent upon us to take a 
look at minimum standards for those who do issue identification 
in the United States of America and certainly for such national 
interstate interests as boarding aircraft, buying weapons and 
so on.
    I yield back.
    Mr. Camp. Thank you. Mr. Goodlatte may inquire.
    Mr. Goodlatte. Thank you, Mr. Chairman, and I also thank 
Chairman Cox for his comments regarding agriculture. It is of 
grave concern here, and I share his hope that we will through 
coordination of efforts here achieve a better result, because 
certainly anything can be improved upon; but less training and 
less front line attention from agriculture folks concern us, 
and we have had not only on our part but I think on the part of 
the farm community and others as well a great deal of concern 
about the lack of communication that has come forward to 
explain exactly how this is going to work.
    I have some exhibits we didn't have time for during the 
first round of questions with Mr. Bonner, but I will take the 
opportunity now, Mr. Chairman, and show you how complex some of 
these things are. These are not apples or oranges. This is the 
can of soup, Big Soup. It looks pretty innocent. It is not a 
U.S. product. It is a product of England and it is a banned 
product in the United States. It was seized at an airport by a 
trained agriculture quarantine inspector. It includes lamb 
ruminant, which is a risk for transmitting mad cow disease; and 
as many know, BSE caused a very serious problem in Europe. We 
have got to keep it out of the United States . It is heat 
resistant, survives the canning process, and BSE is listed as a 
select agent under the Agricultural Bioterrorism Protection 
Act. I hope 16 hours of training for the frontline person will 
help to identify this innocent-looking thing as a problem.
    [Information follows:]

    [GRAPHIC] [TIFF OMITTED] T1510.001
    
    [GRAPHIC] [TIFF OMITTED] T1510.002
    
    [GRAPHIC] [TIFF OMITTED] T1510.003
    
    [GRAPHIC] [TIFF OMITTED] T1510.004
    
    [GRAPHIC] [TIFF OMITTED] T1510.005
    
    [GRAPHIC] [TIFF OMITTED] T1510.006
    
    [GRAPHIC] [TIFF OMITTED] T1510.007
    
    This is not even an agricultural product. It is a 
handicraft, but it contains raw cotton, cotton litter and 
cotton seed, and souvenirs such as stuffed toys and handicrafts 
can contain prohibited agricultural materials. And the risk is 
a number of insects and other disease-bearing items like pink 
boll worm, golden nematode and something called flag smut that 
I had never heard of before.
    This is something called waniola jirardi. Its origin is 
Madagascarian, and the problem is that this can be mistaken for 
a small coconut and released. Coconuts are a municipal product, 
but actually this is a palm nut that is an endangered species. 
And the correct action is to authorize movement to the plant 
inspection station. Plant diseases in violations of the CITES 
regulations are the risk that is involved there.
    This is a bonsai tree with silk flowers. The tree was 
declared as artificial but is actually a live bonsai with the 
leaves removed and replaced with silk flowers. Obviously the 
risk is that this importation could harbor diseases, insects 
and nematodes.
    This one is boneless--if you can't read that, it is 
boneless duck from Taiwan simply labeled as jerry fish. 
Packaging can sometimes be misleading. At a glance this appears 
to be labeled as a fish. Actually, this is boneless duck from 
Taiwan. Animal products must be carefully examined to ensure 
that they are what they appear to be, and the risk here is very 
high. As many people from southern California know, we have 
just been through a very devastating experience, a hundred 
million dollar-plus problem with exotic Newcastle disease. That 
is exactly what the risk is with this product.
    And finally, we have this strange looking thing. This is a 
decorative bird's nest made with rice straw. This is one of 
many types of handicrafts made from prohibited rice and wheat 
straw. These are typically declared as souvenirs, but the 
problem with a number of fungal and bacterial diseases for 
rice, another major California product, is very great.
    So, Mr. Pauli, I would ask you, given the fact that if 
these products are not caught, they could expose American 
agricultural to tremendous risks of pests and diseases, do you 
believe that the proposed training program for primary 
inspectors at points of entry into the United States will be 
sufficient to safeguard American agriculture?
    Mr. Pauli. We believe the answer is no. We are hopeful, 
because without additional training and fully understanding the 
consequences that could occur to California and to American 
agriculture, there has to be more than what they are currently 
telling us and showing us, and we are anxious to find out what 
that is.
    I mean, in my comments I said initially on their Web site 
they said they would receive 16 hours of training. I now 
understand from them directly here today that that has been 
increased to 90. We hope that it is going to be adequate. We 
hope that it is enough detail. We hope that the personnel they 
have, have the kind of MO to try to deal with the scientific 
aspects of understanding these complex issues and the type of 
materials that can come forward. We have major questions about 
whether that is going to occur, and yet as Mr. Cox has said, 
you know, we support many of the concepts here in terms of some 
of the things that are necessary to streamline the process. It 
is just a question of how much streamlining we are going to do 
and how the process is going to evolve and how we can 
adequately ensure that these issues that you brought up and 
that I brought up are going to be addressed. And right now we 
simply haven't been able to get the answers to feel comfortable 
that those kinds of issues are going to be addressed.
    Mr. Goodlatte. Thank you. Let me ask Mr. Keefe and/or Mr. 
Kuhn, you are experienced on the border dealing with things 
unrelated to APHIS. The APHIS inspectors have historically had 
qualified degrees or extensive previous experience, then go 
through not 16, not 90 but 400 hours of training before they 
are put on the front lines. How do you feel about taking over 
these responsibilities in addition to the other two? Do you 
think that is sufficient training?
    Mr. Keefe. No, sir. And I say so--and I enjoyed your 
presentation, and I have seen similar things. And before this 
new position, I was able to say I don't know and refer it to an 
expert. Now I am going to say I don't know and refer it to 
somebody that may know more or less than me.
    So I feel very, very uncomfortable, because the one thing I 
know about the APHIS function is if you really want to 
critically harm this country and its economy, that is a good 
way to do it, and you need a specialization that I know I do 
not possess. So I feel--I, the people I work with, feel very 
uncomfortable about that.
    Mr. Goodlatte. So in other words, the training of the front 
line person as well as the training and the placement of the 
backup, the more specialized person, are both very critical.
    I think we have, Mr. Chairman, an awful lot of unanswered 
questions here that pose a tremendous amount of risk. If hoof 
and mouth disease were to get into the United States, which we 
spend a tremendous amount of time at our borders preventing and 
so far have done successfully, it would be a multibillion 
dollar problem. For that matter, BSE would be a multibillion 
dollar problem for our livestock industry in the country. We 
know of the different types of invasive species that get into 
the country now and cause serious damage to a whole host of not 
just agricultural products but also to our environment that we 
have to deal with, and I am very concerned that more 
information needs to come forward to convince us that we are 
going to increase rather than decrease the expertise we have in 
catching these things at the border. They are very tricky 
problems, and the stories by which some exotic and invasive 
species have gotten into the United States through very 
unexpected means, those are not terrorist acts for the most 
part. They are very innocent acts in many cases, but 
nonetheless have equally if not greater devastation to our 
economy and potentially to the health of people.
    So I hope that the Department will be more forthcoming and 
work with those who do have expertise in this area to design a 
plan that does achieve their goal, which I agree with the 
chairman is a worthwhile goal, at the same time assuring us 
that the goal achieves its real purpose, which is to be more 
effective in this area, not less effective.
    Thank you, Mr. Chairman.
    Mr. Camp. Thank you. I want to thank again this panel and 
the Commissioner for their testimony today. I note that some 
members may have additional questions for this panel, and which 
they may wish to submit into writing. Without objection, the 
hearing record will remain open for 10 days for members to 
submit written questions to these witnesses and to place their 
responses in the record.
    There being no further business, again, I want to thank the 
subcommittee members and the witnesses for testifying here 
today. This hearing is adjourned.
    [Whereupon, at 3:25 p.m., the subcommittee was adjourned.]


                            A P P E N D I X

                               ----------

                   Material Submitted for the Record

   Prepared Statement for the Record of Donna M. Garren, Ph.D. Vice 
              President, Scientific and Technical Affairs

    United Fresh Fruit and Vegetable Association (United) is a national 
trade association representing member growers, shippers, packers, 
processors, marketers and distributors of fresh produce in the United 
States. United members provide the leadership to shape business, trade 
and public policies that drive our industry. Working with thousands of 
industry members, United provides a fair and balanced forum to promote 
business solutions; helps build strong partnerships among all segments 
of the industry, promotes increased produce consumption; and provides 
scientific and technical expertise essential to competing effectively 
in today's marketplace.
    The dramatic impact of the terrorism attacks of September 11, 2001 
has led to a new focus in public policy aimed at promoting greater 
safety and security and preventing terrorist action. As our members 
provide over 1,000 different fresh fruits and vegetables to American 
consumers from both domestic growers and countries around the world, we 
take seriously our responsibility for prevention, detection, and all 
necessary actions to protect consumers from intentional contamination 
of our products. However, our world has changed and the produce 
industry must continue to change with it. Food security is a new issue 
for the entire food industry as a whole and this issue must be 
addressed to build a strong, safe and reliable food supply. Food 
security systems should be risk-based and recognize and respond to new 
risks as they arise, provide the same level of protection to consumers 
whether produced domestically or abroad, efficiently steward new 
technologies to the market; and effectively educate and communicate to 
stakeholders throughout the supply chain. The attention to food safety 
controls that operators in our industry have already proactively 
implemented in their operations can have a significant impact on food 
security.
    While food security is a top priority for the produce industry, 
presently, economic damages from invasive pests and disease now exceed 
$120 billion annually. Toward this end, the fresh produce industry 
supports expedited and aggressive actions by the federal government in 
cooperation with the industry and stake holders at the state and local 
levels to eradicate and protect the domestic market from an increasing 
threat of exotic pests and diseases entering the United States. As a 
result of globalization, federal government action is critically 
important due to the increasing pathways for the movement and 
introduction of foreign, invasive agricultural pests and diseases as 
well as recent economic damages to the affected industries.
    Increased importation of agricultural products into the United 
States has also increased the risk of the introduction of plant pests 
and diseases that threaten domestic production. Fruit imports increased 
from 1.35 million metric tons in 1990 to 2.82 million metric tons in 
1999. Imports of fresh citrus products alone increased from 101,000 
metric tons in 1990 to 348,000 metric tons in 1999. Vegetable imports 
increased from 1.90 million metric tons in 1990 to 3.73 million metric 
tons in 1999. Fresh tomato imports have doubled during that period as 
well. In addition, states such as California and Florida are seeing 
record numbers of tourists and other visitors arrive each year. Some 
330 million visitors entered California and Florida through airports, 
seaports and highways in 1998, a combined increase of over 4.5 percent 
over the previous year. These growth statistics only exacerbate the 
problems surrounding efforts to control and eradicate invasive pests 
and disease.
    Recognizing the need to address this serious situation, we commend 
the U.S. Customs and Border Patrol (CBP), Department of Homeland 
Security (DHS) and the U.S. Department of Agriculture (USDA) for their 
leadership in working with the private sector, including our industry, 
to ensure that appropriate steps are in place to minimize the potential 
of terrorist action to contaminate foods. However, let us keep in mind 
the American food supply continues to be the safest in the world. 
Continuing to ensure the safety and security of fresh fruits and 
vegetables whether produced domestically or abroad is a top priority of 
the entire produce industry. With this in mind, we have serious 
reservations pertaining to the new activities and training of the new 
CBP Officers and Agricultural Specialists.
    While the intention and in concept creating a CBP corps of officers 
who will present ``one face at the border'' to travelers and the 
importing community is good, we have doubts that these individuals will 
be adequately prepare to address invasive pests and disease issues. We 
support the creation of the CBP Agriculture Specialist position which 
will complement the work of the CBP Officers and be stationed at ports 
with large volumes of cargo importation, particularly in those hubs 
where the agriculture industry imports much of the flowers, fruits, 
vegetables, meat, and other products of an agricultural interest. 
However, the reality of most inspections and processing on the 
``frontlines'' will be managed by CBP Officers whose background and 
training will be seriously lacking for the identification of pests and 
disease. Also, the CBP's belief that there will be a unified cargo 
operation enabling a ``one-stop process'' for importers and that cargo 
can be examined more quickly and thoroughly, is misguided. Speed of 
inspections is secondary to thorough and accurate inspections.
    In conclusion, United's members strongly support the goal of 
strengthening the safety and security of our food and the public. 
However, we must not neglect the federal government's responsibility of 
protecting our nation's agricultural crops from invasive pests being 
transported into this country. We need officials on the ``frontlines'' 
of our borders and ports to take seriously their role in this endeavor. 
Thus, we recommend CBP work with the agricultural stakeholders to 
better prepare the corps of new CBP officers to protect our nation's 
agricultural industry. Thank you for the opportunity to comment. We 
look forward to continuing to work together with the DHS, CBP, and USDA 
on these important matters.

                  Prepared Statement of Thomas P. Kuhn

                          AMERICAN FEDERATION

                                   OF

                          GOVERNMENT EMPLOYEES

                               (afl-cio)

 NATIONAL IMMIGRATION AND NATURALIZATION SERVICE COUNCIL #117 BUFFALO 
                         DISTRICT LOCAL NO.2580

                                                   January 23, 2000
The United States House of Representative
Washington, DC

Dear Representatives
    I would like to take this opportunity to present my views on the 
abdication of the Northern Border by the Immigration & Naturalization 
Service. I have been an Immigration Inspector for twenty-eight years, 
twenty of which I have spent in the Buffalo, NY district. In that time 
there has been no increase in the number of non-user fee positions for 
inspectors and only an increase of 19 user fee positions.
    During that time traffic has risen dramatically, as has the 
criminal activity in the area. The rise in traffic has been most 
pronounced at the major Ports of Entry where the Interstate highway 
system connects to the Canadian highway system. Traffic has increased 
so much in Buffalo that they are proposing a second bridge to handle 
the traffic. At Niagara Falls they have built a new inspection 
facility, increasing from six to nineteen lanes but have not funded any 
additional positions. As a consequence of these increases, the Buffalo 
district has had to remove Immigration Inspectors from the following 
Ports of Entry: Fort Covington, Chateaugay, Churubsco, Cannons Corners, 
Jamison Line, Route 9B, and Route 276. All of these New York ports are 
land ports on the Quebec border. They leave a seventy-mile section of 
the Quebec border unprotected by Immigration Inspectors. Unlike the 
southern border, there and no great deserts to act as a natural 
barrier. In northern New York persons intent on breaking the law simply 
drive through an unmanned section at the and then avoid the five or six 
Border Patrol Agents assigned to monitor the area. Then they are in the 
US to do whatever they want. It is no great surprise that one of 
largest known Chinese smuggling ring was just broken in the Massena--
Fort Covington, NY area.
    The Buffalo District encompasses a five hundred-mile border with 
Canada; it also borders Canada's two largest cities, Toronto and 
Montreal. Both of these cities have major organized crime presence. 
Toronto has problems with the Asian gangs, the Russian underworld and 
Jamaican Posses, while Montreal has had open motorcycle gang warfare. 
Both of the suspected Algerian terrorists recently apprehended in 
Washington State and Vermont lived in the Montreal area. The area 
doesn't have large numbers of migrant workers transgressing the border 
looking for work, as the southern border does. Instead it has a very 
sophisticated criminal element, which is ruthless and extremely 
dangerous to contend with. I can tell you from first hand experience 
that there are times when Immigration or Customs Inspectors are forced 
to work alone and man a road block against criminals who would not 
hesitate to kill in order to complete their mission. I personally, 
while stationed at Fort Covington, NY, have had to detain over twenty 
motorcycle gang members alone while waiting for backup to arrive. The 
only reason I was successful in detaining them is because they let me. 
They could have killed me at any time but chose not to. I was not 
important enough to them. They knew that even if backup arrived, the 
worst that could happen is that they would be refused admission to the 
United States and then they would ride to an unguarded section and 
enter without inspection. In fact that may well have been their plan 
all along; knowing how few patrol agents there, they show up in mass at 
a small Port of Entry and when the inspector calls for backup they know 
exactly where the Patrol will be. Then they enter the people or drugs 
they had intended a few miles away.
    There is no way the Buffalo District can complete it's mission of 
securing five hundred miles of border with a total inspections 
allocation of 113 FTE man years and 50 FTEO man years. There are no 
professional law-enforcement agencies that can operate with one third 
of its officers working part time. The Buffalo District needs at least 
one hundred inspection personnel, along with the increased overtime to 
support those numbers. As it stands now with Sunday and Holidays being 
overtime days, the Service reduces to skeleton staffing on the days 
when traffic is heaviest. The Service's small overtime budget further 
exacerbates the already short staffing problems.
    In closing I can only hope that the members of Congress will answer 
the wake up call of the two terrorists caught and not wait until we 
have another Pearl Harbor, or Oklahoma City on their watch. If Congress 
does not act, the only people surprised by a terrorist attack will be 
the innocent victims who depended on the government to protect them. 
The law enforcement community is aware the problem and knows that the 
only people who can help prevent a disaster are the members of 
Congress. They are the only ones who can increase the staffing to 
levels necessary to protect our country.

            Sincerely

                                             Thomas P. Kuhn
                                       President Buffalo Local 2580

                                 <all>

</pre></body></html>
